APPENDIX A

[J-96-2020]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
SAYLOR, C.J., BAER, TODD, DONOHUE, DOUGHERTY, WECHT, MUNDY, JJ.
PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
:
:
:
: SUBMITTED: September 8, 2020
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:

A.01

COUNTY BOARD OF ELECTIONS;
COLUMBIA COUNTY BOARD OF
ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD
OF ELECTIONS; PERRY COUNTY BOARD
OF ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020] - 2

A.02

ELECTIONS; SNYDER COUNTY BOARD
OF ELECTIONS; SOMERSET COUNTY
BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS
PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

OPINION
JUSTICE BAER

DECIDED: September 17, 2020

In October 2019, the General Assembly of the Commonwealth of Pennsylvania
enacted Act 77 of 2019, which, inter alia, created for the first time in Pennsylvania the
opportunity for all qualified electors to vote by mail, without requiring the electors to
demonstrate their absence from the voting district on Election Day, 25 P.S. §§ 3150.113150.17. The Pennsylvania Democratic Party and several Democratic elected officials
and congressional candidates, some in their official capacity and/or as private citizens
(collectively, “Petitioner”), filed the instant action, initially in the Commonwealth Court, in
the form of a petition for review seeking declaratory and injunctive relief relating primarily
to five issues of statutory interpretation involving Act 77 and the Election Code, 25 P.S.

[J-96-2020] - 3

A.03

§§ 2600-3591.1 This Court exercised Extraordinary Jurisdiction to address these issues
and to clarify the law of this Commonwealth in time for the 2020 General Election. 2
I. FACTS AND PROCEDURAL HISTORY
On July 10, 2020, Petitioner filed its petition for review in the Commonwealth Court
against Secretary of the Commonwealth Kathy Boockvar (“Secretary”) and all 67 county
election boards (“Boards”).3 In its petition, Petitioner requested that the Commonwealth
Court issue declaratory and injunctive relief “so as to protect the franchise of absentee
and mail-in voters.” Petition for Review (“Petition”), 7/10/2020, at 5.4

The caption reflects the Secretary of the Commonwealth Kathy Boockvar as filing the
petition before the Court based upon her application for extraordinary review, which this
Court granted. Regardless, as noted, we now refer to the plaintiffs in the underlying
lawsuit as “Petitioner” and, as noted infra, Secretary Boockvar as “Secretary.”
1

2

Pursuant to 42 Pa.C.S. § 726, this Court
may, on its own motion or upon petition of any party, in any matter pending
before any court or magisterial district judge of the Commonwealth involving
an issue of immediate public importance, assume plenary jurisdiction of
such matter at any stage thereof and enter a final order or otherwise cause
right and justice to be done.

At the time Petitioner filed its petition, an action filed by Donald J. Trump for President,
Inc., the Republican National Committee (“RNC”), and several Republican congressional
candidates and electors (collectively, “Republican Party”) against the Secretary and the
Boards was pending in the U.S. District Court for the Western District of Pennsylvania.
In that case, the Republican Party alleged federal and state constitutional violations
stemming from the recent implementation of no excuse mail-in voting under Act 77. The
specific issues raised by the Republican Party in the federal action are, to some extent,
the mirror image of the issues raised by Petitioner in the case sub judice.
3

Concurrently, Petitioner filed both an Application for Special Relief in the Nature of an
Expedited Motion for Alternative Service and an Application for an Expedited Discovery
Schedule and Evidentiary Hearing, to which several responses were filed. On July 15,
2020, the Commonwealth Court denied Petitioner’s request for alternative service. On
July 30, 2020, the Commonwealth Court, inter alia, granted in part and denied in part
Petitioner’s application for an expedited discovery schedule and evidentiary hearing. In
this order, the Commonwealth Court set forth specific deadlines for responsive pleadings.
4

[J-96-2020] - 4

A.04

Specifically, Petitioner raised several discrete issues for the Commonwealth
Court’s consideration, which are discussed in more detail infra. Briefly, in Count 1,
Petitioner requested declaratory relief to confirm that Act 77 permits Boards “to provide
secure, easily accessible locations as the Board deems appropriate, including, where
appropriate, mobile or temporary collection sites, and/or drop-boxes for the collection of
mail-in ballots.” Id. at 47, ¶ 165. Additionally, Petitioner sought an injunction requiring
the Boards to “evaluate the particular facts and circumstances in their jurisdictions and
develop a reasonable plan … to ensure the expedient return of mail-in ballots.” Id. at
¶ 166.
In Count 2, Petitioner sought an injunction to “lift the deadline in the Election Code
across the state to allow any ballot postmarked by 8:00 p.m. on Election Night to be
counted if it is received by the Boards” by 5:00 p.m. on Tuesday, November 10, which is
the deadline for ballots to be received under the Federal Uniformed and Overseas
Citizens Absentee Voting Act (“UOCAVA”).5 Id. at 50, ¶ 178. In the alternative, Petitioner
posited that the Commonwealth Court could, with a few caveats, “enjoin the Counties to
extend a more tailored ballot extension deadline to the date that is 21 days after the
particular voter’s ballot is mailed by the county[.]” Id. at ¶ 179.
In Count 3, Petitioner highlighted that the “procedure for mail-in ballots often leads
to minor errors, which result in many ballots being rejected and disenfranchising voters
who believe they have exercised their right to vote.” Id. at 51, ¶ 186. In anticipation of
these expected errors, Petitioner again sought an injunction requiring Boards that have
knowledge of an incomplete or incorrectly filled out ballot and the elector’s contact

The UOCAVA delineates, inter alia, the process and procedure in which overseas voters
and voters in the uniformed services receive absentee ballots for federal elections. See
generally 52 U.S.C. §§ 20301-20311.
5

[J-96-2020] - 5

A.05

information to contact the elector and provide them “the opportunity to cure the facial
defect until the UOCAVA deadline.” Id. at 52, ¶ 187.
In Count 4, Petitioner requested a declaration that there is no statutory authority to
set aside an absentee or mail-in ballot solely for failure to place it into the official election
ballot envelope (hereinafter referred to as the “secrecy envelope”), as well as an
injunction prohibiting any “naked ballots,” which are otherwise without error, from being
invalidated.6 Id. at 54, ¶ 198-199. A “naked ballot” refers to an official mail-in ballot that
is not placed in the secrecy envelope before mailing.
Finally, in Count 5, Petitioner sought a declaration that the “Election Code’s poll
watcher residency requirement does not violate the United States Constitution’s First and
Fourteenth Amendments, its Equal Protection Clause, or the Equal Protection and Free
and Equal Elections Clauses of the Pennsylvania Constitution.” Id. at 55, ¶ 207.
On August 13, 2020, the Secretary filed an Answer and New Matter to the petition.
In addition, twenty of the named Boards filed answers with new matter, fourteen of the
Boards filed answers, and nine of the Boards filed preliminary objections.7 Requests to
intervene were filed by Donald J. Trump for President, Inc., the Republican Party of
Pennsylvania, and the RNC, as well as Joseph B. Scarnati III, President Pro Tempore,
and Jake Corman, Majority Leader of the Pennsylvania Senate, in opposition to the
petition.

The Common Cause Pennsylvania, The League of Women Voters of

As explained more fully below, upon receipt of an official mail-in ballot, the mail-in elector
is to mark the ballot in secret, and then fold the ballot, enclose, and securely seal the
same in the secrecy envelope provided. 25 P.S. § 3150.16(a). The secrecy envelope
“shall then be placed in the second one, on which is printed the form of declaration of the
elector, and the address of the elector’s county board of election and the local election
district of the elector.” Id.
6

On August 27, 2020, Petitioner filed its: (1) Answer to the Secretary’s New Matter; (2)
Answer to the new matter filed by various Boards; and (3) an omnibus memorandum of
law opposing the preliminary objections filed by several Boards.
7

[J-96-2020] - 6

A.06

Pennsylvania, The Black Political Empowerment Project (“B-PEP”), Make the Road
Pennsylvania, a project of Make the Road States (“Make the Road PA”), Patricia M.
DeMarco, Danielle Graham Robinson, and Kathleen Wise filed a joint application to
intervene as co-petitioners.
On August 16, 2020, the Secretary filed an application asking this Court to exercise
extraordinary jurisdiction over Petitioner’s petition for review.8 Highlighting, inter alia, the
two major political parties’ “diametric positions” on the interpretation of several Act 77
provisions and the fast-approaching 2020 General Election, the Secretary asserted that
“[t]he exercise of extraordinary jurisdiction by this Court is the only means available to
resolve these disputes without disrupting the election.”

Secretary’s Application for

Extraordinary Relief, 8/16/2020, at 14-16. On August 19, 2020, Petitioner filed an Answer
to the Secretary’s application, noting that it had no objection to this Court exercising its
extraordinary jurisdiction.9

In her application, the Secretary informed this Court that she had filed a motion in the
aforementioned federal action urging the District Court to abstain from rendering a
decision pursuant to R.R. Comm’n of Tex. v. Pullman, 312 U.S. 496 (1941) (explaining
that, where appropriate, a federal court may abstain from deciding a case to permit a
state court the opportunity to resolve a state law question). Secretary’s Application for
Extraordinary Relief, 8/16/2020, at 17. This motion was later granted. See Trump for
President, Inc., 2020 WL 4920952, at *21 (W.D. Pa. 2020).
8

In addition, on August 18, 2020, Bucks, Chester, Montgomery, and Philadelphia County
Boards of Election filed an Answer in Support of the Secretary’s application. Likewise,
on August 19, 2020, Armstrong, Bedford, Blair, Centre, Columbia, Dauphin, Fayette,
Huntingdon, Indiana, Lackawanna, Lawrence, Lebanon, Montour, Northumberland,
Venango, and York County Boards of Election also filed an answer joining the Secretary’s
application. Several of the remaining 67 counties filed no answer letters. On August 20,
2020, answers were filed by the Republican proposed intervenors, as well as proposed
co-petitioners, The Common Cause Pennsylvania, The League of Women Voters of
Pennsylvania, B-PEP, Make the Road PA, Patricia M. DeMarco, Danielle Graham
Robinson, and Kathleen Wise.
9

[J-96-2020] - 7

A.07

Faced with a national election scheduled to occur on November 3, 2020 and
substantial legal issues that required the highest court of Pennsylvania’s analysis and
response to ensure a free and fair election, on September 1, 2020, this Court granted the
Secretary’s Application and set forth a schedule for supplemental briefing and filings. 10
Later, on September 3, 2020, this Court filed an order granting the motions to intervene
filed by the Republican Party of Pennsylvania (hereinafter, “Respondent”) and Joseph B.
Scarnati III, Pennsylvania Senate President Pro Tempore, and Jake Corman, Senate
Majority Leader, representing the Republican Senate Caucus (hereinafter, “Caucus”).
Applications to intervene filed by Donald J. Trump for President, Inc., and the RNC;
Common Cause of Pennsylvania, the League of Women Voters of Pennsylvania, B-PEP,
Make the Road PA, Patricia M. DeMarco, Danielle Graham Robinson, and Kathleen Wise
were denied without prejudice to the parties’ ability to file briefs as amicus curiae pursuant
to Pa.R.A.P. 531.11 The parties have submitted supplemental filings in support of their
The Secretary highlighted in her application for extraordinary relief to this Court that
there was insufficient time to engage in full pre-trial proceedings and discovery before
applications for summary relief could be filed. See Secretary’s Application for
Extraordinary Relief, 8/16/2020, at 13-14. In fact, the Secretary explained that because
of all the uncertainties surrounding the case, it was unclear “whether discovery,
dispositive motions, and a hearing were even necessary.” Id. at 14 n.3. She maintained
that Petitioner’s application to expedite discovery and a hearing in Commonwealth Court
was premature. Thus, the Secretary sought extraordinary review of the discrete legal
claims alleged in the lawsuit as if at the summary relief stage of the case. Cognizant of
our authority when exercising extraordinary jurisdiction, this Court granted the Secretary’s
request. See Order dated 9/1/2020. Accordingly, because of the intense time pressure
confronting this Court, we do not address the various procedural filings in the case and,
rather, address only the five discrete legal claims before us. See 42 Pa.C.S. §726 (this
Court may “assume plenary jurisdiction of [any matter pending before any court] at any
stage thereof and enter a final order or otherwise cause right and justice to be done”).
10

After this Court granted the Secretary’s application and set a schedule for supplemental
filings, Bryan Cutler and Kerry Bennighoff, Speaker and Majority Leader of the
Pennsylvania House of Representatives, respectively, filed an Application to Intervene,
while State Senator Jay Costa, on behalf of the Senate Democratic Caucus filed an
11

[J-96-2020] - 8

A.08

respective positions, and this matter is now ripe for disposition of the discrete five legal
issues before us.
II. RELEVANT OVERARCHING PRINCIPLES OF LAW
Generally speaking, each of the five issues presented by Petitioner presents a pure
question of law, over which our standard of review is de novo and our scope of review is
plenary. In re Vencil, 152 A.3d 235, 241 (Pa. 2017). Specifically, in large part, Petitioner
requests relief in the form of declarations of law regarding Act 77 pursuant to the
Declaratory Judgments Act, 42 Pa.C.S. §§ 7531-7541.

Accordingly, we address the

issues presented mindful of the following.
The Declaratory Judgments Act, which is to be liberally construed and
administered, was promulgated to “settle and to afford relief from uncertainty and
insecurity with respect to rights, status, and other legal relations[.]” 42 Pa.C.S. § 7541(a).
Pertinent to the instant matter, this Act provides, in relevant part, that “[a]ny person . . .
whose rights, status, or other legal relations are affected by a statute . . . may have
determined any question of construction or validity arising under the . . . statute . . . and
obtain a declaration of rights, status, or other legal relations thereunder.” 42 Pa.C.S.
§ 7533.12
Application to Intervene, which was later amended to include State Representative Frank
Dermody, on behalf of the House Democratic Caucus. Because of the necessary
expediency of reaching a decision in this case, and given that adequate advocacy has
been provided, these applications, submitted close to this Court’s deadline for
supplemental filings, are denied. In any case, the requests are moot given the issuance
of our decision.
Notably, while Petitioner has styled its requested relief as “injunctive” in reality it seeks
declaratory relief. We will treat its prayers for relief accordingly. In this regard, as noted,
essentially, we are treating the matter as if it is at the summary relief stage. See Hosp. &
Healthsystem Ass'n of Pa. v. Com., 77 A.3d 587, 602 (Pa. 2013) (“An application for
summary relief may be granted if a party’s right to judgment is clear and no material issues
of fact are in dispute.”) (citation omitted). See also Pa.R.A.P. 1532(b) (providing that “[a]t
12

[J-96-2020] - 9

A.09

When presented with matters of statutory construction, this Court is guided by
Pennsylvania’s Statutory Construction Act, 1 Pa.C.S. § 1501-1991. Under this Act, “the
object of all statutory construction is to ascertain and effectuate the General Assembly’s
intention.”

Sternlicht v. Sternlicht, 876 A.2d 904, 909 (Pa. 2005) (citing 1 Pa.C.S.

§ 1921(a) (“The object of all interpretation and construction of statutes is to ascertain and
effectuate the intention of the General Assembly”)). When the words of a statute are clear
and unambiguous, “the letter of it is not to be disregarded under the pretext of pursuing
its spirit.” 1 Pa.C.S. § 1921(b); see also Sternlicht, supra. However, when the words of
a statute are not explicit, the General Assembly’s intent is to be ascertained by consulting
a comprehensive list of specific factors set forth in 1 Pa.C.S. § 1921(c).

See also

Pennsylvania Associated Builders & Contractors, Inc. v. Commonwealth Dep’t of Gen.
Servs., 932 A.2d 1271, 1278 (Pa. 2007) (recognizing that when the “words of the statute
are not explicit, the General Assembly’s intent is to be ascertained by considering matters
other than statutory language, like the occasion and necessity for the statute; the
circumstances of its enactment; the object it seeks to attain; the mischief to be remedied;
former laws; consequences of a particular interpretation; contemporaneous legislative
history; and legislative and administrative interpretations”).
Moreover, we recognize that in this Commonwealth, “[e]lections shall be free and
equal; and no power, civil or military, shall at any time interfere to prevent the free exercise
of the right of suffrage.” PA. CONST. art. I, § 5 (hereinafter referred to as the “Free and
Equal Elections Clause”). The broad text of this specific provision “mandates clearly and
unambiguously, and in the broadest possible terms, that all elections conducted in this
Commonwealth must be ‘free and equal.’” League of Women Voters v. Commonwealth,
178 A.3d 737, 804 (Pa. 2018) (emphasis in original). Stated another way, this clause was
any time after the filing of a petition for review in an appellate or original jurisdiction matter,
the court may on application enter judgment if the right of the applicant thereto is clear.”).
[J-96-2020] - 10

A.10

“specifically intended to equalize the power of voters in our Commonwealth’s election
process[.]” Id. at 812.
Finally, this Court has previously observed that the purpose and objective of the
Election Code, which contains Act 77, is “[t]o obtain freedom of choice, a fair election and
an honest election return[.]” Perles v. Hoffman, 213 A.2d 781, 783 (Pa. 1965). To that
end, the Election Code should be liberally construed so as not to deprive, inter alia,
electors of their right to elect a candidate of their choice. Id. at 784. With these general
principles in mind, this Court will address in turn each of the five discrete issues presented
by Petitioner.
III. ISSUES
A. COUNT I OF THE PETITION FOR REVIEW
Section 3150.16(a) of the Election Code, 25 P.S. § 3150.16(a), is part of Act 77
and pertinent to several issues in this matter. That statutory provision, which is entitled
“Voting by mail-in electors,” states as follows:
(a) General rule.--At any time after receiving an official mail-in ballot, but
on or before eight o’clock P.M. the day of the primary or election, the mailin elector shall, in secret, proceed to mark the ballot only in black lead pencil,
indelible pencil or blue, black or blue-black ink, in fountain pen or ball point
pen, and then fold the ballot, enclose and securely seal the same in the
envelope on which is printed, stamped or endorsed “Official Election Ballot.”
This envelope shall then be placed in the second one, on which is printed
the form of declaration of the elector, and the address of the elector’s county
board of election and the local election district of the elector. The elector
shall then fill out, date and sign the declaration printed on such envelope.
Such envelope shall then be securely sealed and the elector shall send
same by mail, postage prepaid, except where franked, or deliver it in person
to said county board of election.
25 P.S. § 3150.16(a). The last sentence of this provision is the primary focus of the first
question of law that we will address. The plain language of this sentence allows an elector
to mail her securely sealed envelope containing the elector’s “Official Election Ballot” to

[J-96-2020] - 11

A.11

her “county board of election” or, more relevant to this issue, “deliver it in person to said
county board of election.” Id.
In Count I of its petition for review, Petitioner seeks a declaration that a reasonable
interpretation of Section 3150.16(a) of the Election Code permits county boards of
election to provide electors with as many secure and easily accessible locations to deliver
personally their mail-in ballots as each board deems appropriate.13 Petitioner suggests
that these locations can consist of mobile or temporary collection sites and that county
boards of election may utilize secure drop-boxes for the collection of hand-delivered mailin ballots.
Indeed, Petitioner contends that, by enacting Section 3150.16(a) of the Election
Code, the General Assembly clearly and unambiguously intended to provide the various
county boards of election with the option of accepting hand-delivered mail-in ballots at
any location controlled by the boards, not just at the boards’ central offices. In support of
this position, Petitioner points out, inter alia, that pursuant to Section 3151 of the Election
Code, the General Assembly empowered each county board of election to receive “ballot

Under Count I, Petitioner also sought relief “in the form of an affirmative injunction
requiring that county Boards are required to evaluate the particular facts and
circumstances in their jurisdictions and develop a reasonable plan reflecting the needs of
the citizens of the county to ensure the expedient return of mail-in ballots.” Petition at 47,
¶ 166. Petitioner accurately concedes that it must establish a clear right to this relief. Id.
at ¶ 167; see Roberts v. Bd. of Directors of Sch. Dist. of City of Scranton, 341 A.2d 475,
478 (Pa. 1975) (explaining that, “for a mandatory injunction to issue, it is essential that a
clear right to relief in the plaintiff be established”). To the extent that Petitioner continues
to seek injunctive relief in this form, we summarily decline the request, as there simply is
no legal authority that would allow this Court to mandate that the county boards of election
“evaluate the particular facts and circumstances in their jurisdictions and develop a
reasonable plan reflecting the needs of the citizens of the county to ensure the expedient
return of mail-in ballots.” In other words, Petitioner cannot establish a clear right to relief
with regard to their request for a mandatory injunction.
13

[J-96-2020] - 12

A.12

boxes and returns” in their offices or “in any such other place as has been designated by
the board.”14 25 P.S. § 3151.
The Secretary builds on Petitioner’s argument.

In so doing, the Secretary

highlights that, in construing Section 3150.16(a) of the Election Code, the Court should
consider that the General Assembly defined “county board” or “board” as meaning “the
county board of elections of any county herein provided for.” 25 P.S. § 2602. According
to the Secretary, this definition clarifies that, for purposes of Section 3150.16(a), “county
board of election” refers to a municipal body, not a physical office or address. In other
words, the Secretary believes that, when this definition is used for purposes of Section
3150.16(a), that Section unambiguously permits voters to deliver mail-in ballots in person
to places designated by county boards of election, other than their respective office
addresses.
In further support of this position, the Secretary asserts that the Election Code
contemplates that county boards of election will operate out of multiple locations. See 25
P.S. § 2645(b) (stating, inter alia, that the “county commissioners or other appropriating
authorities of the county shall provide the county board with suitable and adequate offices
at the county seat, property furnished for keeping its records, holding its public sessions
and otherwise performing its public duties, and shall also provide, such branch offices for
the board in cities other than the county seat, as may be necessary”). Echoing Petitioner’s
argument, the Secretary further suggests that the Election Code anticipates that “ballot
14

Section 3151 of the Election Code states, in full, as follows:
Each county board of elections shall cause its office to remain open, in
charge of one or more members of the board, during the entire duration of
each primary and election, and after the close of the polls, until all the ballot
boxes and returns have been received in the office of the county elections
board, or received in such other place as has been designated by the board.

25 P.S. § 3151.
[J-96-2020] - 13

A.13

boxes and returns” may be received “in the office of the county elections board, or
received in such other places as has been designated by the board.” 25 P.S. § 3151.
The Secretary insists that the Election Code is devoid of any language limiting
county boards of election from accepting delivery of mail-in votes solely at their primary
office addresses. In fact, the Secretary takes the position that to hold otherwise would
contravene the plain language of the Election Code. However, assuming arguendo that
this Court deems the Election Code ambiguous on this point, the Secretary advocates
that a reasonable interpretation of the Code nonetheless authorizes county boards of
election to utilize multiple drop-off sites to accept hand-delivered mail-in ballots.
In this regard, the Secretary focuses on the statutory considerations to which this
Court may refer when construing an ambiguous statute, 1 Pa.C.S. § 1921(c), as
described supra. More specifically, the Secretary posits that the General Assembly
enacted Act 77 with the object of increasing the electorate’s participation in the electoral
process by making it easier and more convenient to vote, providing all electors with the
option to mail in their ballots. The Secretary opines that, consistent with this objective,
the General Assembly intended to allow county boards of election to accept handdelivered mail-in ballots at locations besides the boards’ central office addresses. The
Secretary takes the position that, if this Court deems reasonable the various parties’
competing interpretations of the Election Code, then the Court should construe the Code
in favor of the right to vote.
Contrary to the contentions of the Secretary and Petitioner, Respondent submits
that the Election Code prohibits county boards of election from designating locations other
than their established county offices for hand delivery of mail-in ballots. Rather, according
to Respondent, Section 3150.16(a) of the Election Code unambiguously mandates that
an elector must either mail her mail-in ballot to the office address of the county board of

[J-96-2020] - 14

A.14

election or deliver that ballot in person to the same office address. Stated differently,
Respondent takes the position that the Election Code requires electors either to place
their mail-in ballots, addressed to their county boards of election, into the United States
Postal Service’s [“USPS”] system or personally to deliver their mail-in ballot to that office.
In further support of this position, Respondent highlights the Election Code’s use
of the word “office” in the “deadline” provision for mail-in votes, Section 3150.16(c), which
states that “a completed mail-in ballot must be received in the office of the county board
of elections no later than eight o’clock P.M. on the day of the primary or election.” 25 P.S.
§ 3150.16(c). Respondent also points out that the Election Code requires that a secure
envelope containing a mail-in ballot have printed upon it “the address of the elector’s
county board of election,” so that “the elector shall send same by mail, postage prepaid,
except where franked, or deliver it in person to said county board of election.” 25 P.S.
§ 3150.16(a). Thus, Respondent believes that, in sum, these statutory directives clearly
indicate that the General Assembly intended that electors either mail or personally deliver
mail-in ballots to the established office addresses of the county boards of election.
Next, Respondent reminds us that the Secretary and Petitioner are asking this
Court to interpret the Election Code to allow voters to deliver their mail-in ballots to
locations that will include unmanned drop-boxes. Respondent contends that Petitioner
and the Secretary fail to articulate where the Election Code mentions “drop-boxes” or
“satellite locations.” Respondent then asserts that, if this Court were to interpret the
Election Code as Petitioner and the Secretary propose, the Court would invalidate an
alleged requirement of Act 77, i.e., the need to deliver mail-in ballots to the established
offices of county boards of election.
In addition, Respondent suggests that the preferred interpretation of the Election
Code advocated by the Secretary and Petitioner permits the individual counties to

[J-96-2020] - 15

A.15

implement differing ballot-return regimes. Respondent avers that this outcome would
violate principles of equal protection. In support, Respondent quotes Pierce v. Allegheny
County Bd. of Elections, 324 F.Supp.2d 684, 697 (W.D. Pa. 2003), for the proposition that
“[a] state must impose uniform statewide standards in each county in order to protect the
legality of a citizen’s vote. Anything less implicates constitutional problems under the
equal protection clause of the Fourteenth Amendment.” For these reasons, Respondent
contends that the interpretation of the Election Code posited by Petitioner and the
Secretary must fail.
The primary argument of the Caucus largely tracks that of Respondent, particularly
the contention that the relief proposed by Petitioner and the Secretary would create an
equal protection problem. According to the Caucus, pursuant to the solution offered by
Petitioner and the Secretary, some counties will provide more locations for voters to
deliver their mail-in ballots, while other counties will allow voters to convey their mail-in
ballots solely to the office addresses of the county boards of election. The Caucus views
this possibility as a violation of equal protection.
Notably, in an apparent break from Respondent’s position, subject to its equal
protection argument, the Caucus seems to concede that Pennsylvania law allows county
boards of election to provide for in person delivery of mail-in ballots at more than one
county election board office located within the county’s borders. However, the Caucus
insists that additional offices must comply with various requirements, including those
outlined in Section 2645(b) of the Election Code. See 25 P.S. § 2645(b) (explaining that
“[t]he county commissioners or other appropriating authorities of the county shall provide
the county board with suitable and adequate offices at the county seat, property furnished
for keeping its records, holding its public sessions and otherwise performing its public
duties, and shall also provide, such branch offices for the board in cities other than the

[J-96-2020] - 16

A.16

county seat, as may be necessary”). In closing, the Caucus submits that unstaffed dropboxes would not constitute a branch office of a county board of election and are otherwise
not authorized by the Election Code as a method for collecting hand-delivered mail-in
ballots.
Turning to our analysis, we observe that the question before us consists of the
following two-part query regarding the Election Code: Does the Election Code allow a
Pennsylvania voter to deliver her mail-in ballot in person to a location other than the
established office address of her county’s board of election, and if so, what means can
county boards of election utilize to accept hand-delivered mail-in ballots? For the reasons
that follow, we find that the parties’ competing interpretations of the Election Code on this
issue are reasonable, rendering the Code ambiguous as it relates to this query. See A.S.
v. Pennsylvania State Police, 143 A.3d 896, 905-06 (Pa. 2016) (explaining that a “statute
is ambiguous when there are at least two reasonable interpretations of the text”).
In reaching this conclusion, we observe that Section 3150.16(a) of the Election
Code explicitly allows an elector to deliver in person her securely sealed envelope
containing her mail-in ballot “to said county board of election.” 25 P.S. § 3150.16(a). The
Election Code simply defines “county board” or “board” to mean “the county board of
elections of any county herein provided for.” 25 P.S. § 2602(c). Thus, the language used
by the Legislature regarding where a mail-in ballot may be delivered in person is not solely
limited to the official central office of the county board of election, and other sections of
the Election Code permit a board of election to operate outside of its principal office. See,
e.g., 25 P.S. § 2645(b) (stating, inter alia, that the “county commissioners or other
appropriating authorities of the county shall provide the county board with suitable and
adequate offices at the county seat, property furnished for keeping its records, holding its
public sessions and otherwise performing its public duties, and shall also provide, such

[J-96-2020] - 17

A.17

branch offices for the board in cities other than the county seat, as may be necessary”).
Therefore, on the one hand, these provisions tend to favor the view of Petitioner and the
Secretary that the General Assembly did not intend to limit voters to delivering personally
their mail-in ballots solely to the established office addresses of their county boards of
election. Rather, as these parties rationally contend, when this definition is utilized for
purposes of construing Section 3150.16(a), that exercise suggests that a voter can hand
deliver her mail-in ballot to any location designated by the county board of election as a
place where the board will accept these ballots.
Alternatively, we recognize that Section 3150.16(a) of the Election Code directs
that an elector may deliver her mail-in ballot in person only to “the county board of
election.”

25 P.S. § 3150.16(a).

As Respondent in particular understandably

emphasizes, neither this statutory language nor any other provision of the Election Code
explicitly empowers a county board of election to establish satellite mail-in ballot collection
facilities or to utilize secure drop-boxes for purposes of accepting hand-delivered mail-in
ballots. These observations, when viewed in the totality of the various arguments, lead
us to conclude that the parties’ competing interpretations are reasonable.
Accordingly, we turn to interpretive principles that govern ambiguous statutes
generally and election matters specifically.

In so doing, we are mindful of the

“longstanding and overriding policy in this Commonwealth to protect the elective
franchise.” Shambach v. Bickhart, 845 A.2d 793, 798 (Pa. 2004) (citations omitted).
Moreover, it is well-settled that, “although election laws must be strictly construed to
prevent fraud, they ordinarily will be construed liberally in favor of the right to vote.” Id.
(internal quotation marks omitted). Indeed, “[o]ur goal must be to enfranchise and not to
disenfranchise [the electorate].” In re Luzerne Cty. Return Bd., 290 A.2d 108, 109 (Pa.
1972). Lastly, in resolving statutory ambiguity, we may consider, inter alia, the occasion

[J-96-2020] - 18

A.18

and necessity for, the mischief to be remedied by, and the object to be obtained by the
statute. 1 Pa.C.S. § 1921(c)(1), (3), and (4), respectively.
With all of that said, we need not belabor our ultimate conclusion that the Election
Code should be interpreted to allow county boards of election to accept hand-delivered
mail-in ballots at locations other than their office addresses including drop-boxes. This
conclusion is largely the result of the clear legislative intent underlying Act 77, which
animates much of this case, to provide electors with options to vote outside of traditional
polling places. Section 3150.16(a) of the Election Code undeniably exemplifies this intent
by granting the Pennsylvania electorate the right to vote by way of a mail-in ballot beyond
the circumstances that ordinarily allow this alternative, such as voter absenteeism.
Accordingly, although both Respondent and the Caucus offer a reasonable
interpretation of Section 3150.16(a) as it operates within the Election Code, their
interpretation restricts voters’ rights, as opposed to the reasonable interpretation tendered
by Petitioner and the Secretary. The law, therefore, militates in favor of this Court
construing the Election Code in a manner consistent with the view of Petitioner and the
Secretary, as this construction of the Code favors the fundamental right to vote and
enfranchises, rather than disenfranchises, the electorate.
In light of this conclusion, we will briefly address the equal protection argument of
Respondent and the Caucus. The premise of that argument, as detailed supra, is that, if
this Court interprets the Election Code in a manner that is consistent with the position of
Petitioner and the Secretary, which we have, then the county boards of election will
employ myriad systems to accept hand-delivered mail-in ballots, which allegedly will be
unconstitutionally disparate from one another in so much as some systems will offer more
legal protections to voters than others will provide. However, the exact manner in which
each county board of election will accept these votes is entirely unknown at this point;

[J-96-2020] - 19

A.19

thus, we have no metric by which to measure whether any one system offers more legal
protection than another, making an equal protection analysis impossible at this time.
Accordingly, the equal protection argument of Respondent and the Caucus does not alter
our conclusion in this matter.
Thus, for these reasons, this Court declares that the Election Code permits county
boards of election to accept hand-delivered mail-in ballots at locations other than their
office addresses including drop-boxes.15
B. COUNT II OF THE PETITION FOR REVIEW
In its second count, Petitioner presents this Court with an as-applied challenge to
the Election Code’s deadline for receiving ballots (“received-by deadline”), which requires
mail-in and absentee ballots to be returned to Boards no later than 8:00 p.m. on Election
Day, 25 P.S. §§ 3146.6(c), 3150.16(c).

It contends that strict enforcement of this

deadline, in light of the current COVID-19 pandemic and alleged delays in mail delivery
by the USPS, will result in extensive voter disenfranchisement in violation of the
Pennsylvania Constitution’s Free and Equal Elections Clause.
As noted above, the Free and Equal Elections Clause provides that “[e]lections
shall be free and equal; and no power, civil or military, shall at any time interfere to prevent
the free exercise of the right to suffrage.” PA. CONST. art. I, § 5. Petitioner interprets this
provision as forbidding the Boards from interfering with the right to vote by failing to act in
We note that the Secretary has issued guidelines in this regard specifying that the
Boards “may provide voters with access to a secure ballot return receptacle.” See
Secretary’s Post-Submission Communication dated 8/24/2020, setting forth the
Secretary’s Absentee and Mail-in Ballot Return Guidance at 1.1. Additionally, and
consistent with the requirement that all votes must be cast by Election Day, these
guidelines specify that: “Authorized personnel should be present at ballot return sites
immediately prior to 8:00 p.m. or at the time the polls should otherwise be closed”; “At
8:00 p.m. on election night, or later if the polling place hours have been extended, all
ballot sites, and drop-boxes must be closed and locked”; and “Staff must ensure that no
ballots are returned to ballot return sites after the close of the polls.” Id. at 3.3.
15

[J-96-2020] - 20

A.20

a timely manner so as to allow electors to participate in the election through mail-in voting.
Petition at 49, ¶ 176.
In support of its as-applied challenge in regard to the upcoming General Election,
Petitioner recounts this Commonwealth’s recent experience during the June Primary. It
emphasizes that, during the Primary, the Boards were inundated with over 1.8 million
requests for mail-in ballots, rather than the expected 80,000 - 100,000, due in large part
to the COVID-19 pandemic, which caused many voters to be wary of congregating in
polling places.

Petitioner’s Brief at 2, 51.

Petitioner asserts that “[t]his crush of

applications created massive disparities in the distribution and return of mail-in ballots.”
Petition at 24, ¶ 70.
It explains that, while some Boards were able to process the requests within the
statutory requirements established by Act 77,16 other boards, especially those in areas
hard-hit by the pandemic, were unable to provide electors with ballots in time for the
electors to return their ballot in accord with the statutory deadline. Petition at 23, ¶ 66.
Indeed, it avers that in Delaware County, thousands of ballots were “not mailed out until
the night” of the Primary, making timely return impossible. Petition at 26, ¶ 77. Bucks
County apparently experienced similar delays.
To remedy this situation, the Election Boards of Bucks and Delaware Counties
sought relief in their county courts.17 Recognizing that the Election Code “implicitly
Act 77, inter alia, requires Boards to verify an applicant’s submitted information to
determine whether the applicant is “qualified to receive an official mail-in ballot.” 25 P.S.
§ 3150.12b(a). After approving an application, the Election Code, as amended by Act 77,
instructs that “the board shall deliver or mail official mail-in ballots to the additional electors
within 48 hours.” 25 P.S. § 3150.15.
16

The Election Code grants courts of common pleas the authority to address situations
which arise on the day of a primary or general election, 25 P.S. § 3046. Section 3046
entitled “Duties of common pleas court on days of primaries and elections,” provides:
17

[J-96-2020] - 21

A.21

granted [the courts the] authority to provide relief when there is a natural disaster or
emergency” that threatens to deprive electors of the opportunity to participate in the
electoral process, the Courts of Common Pleas of Bucks and Delaware Counties
extended the deadline for the return of mail-in ballots for seven days, so long as the ballot
was postmarked by the date of the Primary. In re: Extension of Time for Absentee and
Mail-In Ballots to be Received By Mail and Counted in the 2020 Primary Election, No.
2020-02322-37 (C.P. Bucks) (McMaster, J.); see also In re: Extension of Time for
Absentee and Mail-In Ballots to be Received By Mail and Counted in the 2020 Primary
Election, No.-CV 2020-003416 (C.P. Delaware).
Petitioner also observes that voters in six counties received an extension to the
return deadline pursuant to an executive order issued by Governor Wolf, invoking the
Emergency Management Services Code, 35 Pa.C.S. § 7301(c).18 In Executive Order No.
2020-02, Governor Wolf addressed impediments to timely ballot return arising from the
pandemic as well as civil unrest that had arisen immediately before the Primary in the
specified counties following the killing of George Floyd by police officers.

The

impediments included road closures, public transportation disruptions, and curfews. To
combat the potential disenfranchisement of voters, especially in light of the
“unprecedented number” of mail-in ballots due to the pandemic, the Governor extended
During such period said court shall act as a committing
magistrate for any violation of the election laws; shall settle
summarily controversies that may arise with respect to the
conduct of the election; shall issue process, if necessary, to
enforce and secure compliance with the election laws; and
shall decide such other matters pertaining to the election as
may be necessary to carry out the intent of this act.
25 P.S. § 3046.
The affected counties were Allegheny, Dauphin, Delaware, Erie, Montgomery, and
Philadelphia.
18

[J-96-2020] - 22

A.22

the received-by deadline for seven days, so long as the ballots were postmarked by the
date of the Primary. Governor Wolf, Executive Order No. 2020-02 (June 1, 2020).
While voters in specified counties benefitted from extensions of time to return their
ballots, Petitioner emphasizes that the Commonwealth Court rejected a request for a
statewide extension of the ballot received-by deadline in Delisle v. Boockvar, 319 M.D.
2020 (Pa. Cmwlth. June 2, 2020) (Memorandum Opinion), favoring instead a county-bycounty remedy. Indeed, while not mentioned by Petitioner, this Court additionally denied
relief to a petitioner seeking a statewide extension of the ballot received-by deadline
weeks before the June Primary, where the petitioner similarly argued for the extension
based upon the overwhelming number of mail-in ballot applications and delays in the
USPS system. Disability Rights Pa. v. Boockvar, No. 83 MM 2020, 2020 WL 2820467
(Pa. May 15, 2020).
In light of the lessons learned from the June Primary, Petitioner asserts that a
statewide remedy is now necessary for the General Election. It suggests that the lack of
a statewide remedy risks an equal protection challenge as only some voters would benefit
from the extended deadline based on their county court’s determination. Petition at 3233, ¶ 105. Moreover, it emphasizes that a statewide order from this Court early in the
election process would reduce voter confusion, as compared to the last-minute countyby-county relief granted during the Primary to address emergency situations. Petitioner’s
Brief at 26-27 n.9.
Petitioner avers that the difficulties encountered by Boards processing the ballot
applications prior to the June Primary will only be exacerbated in the November General
Election. It emphasizes the continued grip of the pandemic, and a potential second wave
of infections, which will result in more electors seeking to exercise their right to vote by
mail. Petition at 49, ¶ 173-175. Additionally, it recognizes the undisputed fact that heavily

[J-96-2020] - 23

A.23

contested Presidential elections involve substantially greater voter participation than
largely uncontested primaries, further observing that “[i]t is normal in elections with
significant public attention for there to be a flood of registrations received right before
deadlines.” Petition at 26, ¶ 79. It highlights that the Secretary estimates that 3 million
electors will seek mail-in or absentee ballots for the General Election in contrast to the
1.5 million votes cast by mail at the Primary, and the pre-pandemic assumption of 80,000
- 100,000 absentee and mail-in ballots. Petitioner’s Brief at 51.
Petitioner asserts that the overwhelming demand on the Boards will be
exacerbated by delays in the USPS mail delivery system.

Petitioner observes that

historically the law presumed that a document placed in a mail collection box would be
delivered within three days of placement, rather than the current two to five day delivery
expectation of the USPS. Id. at 50. Petitioner avers that substantial delivery delays have
resulted from a combination of recent operational changes at the USPS and decreased
staffing caused by the pandemic. Id. at 20-21. It emphasizes that the USPS recently
warned that there is a “significant risk” that Pennsylvania voters who submit timely ballot
requests will not have sufficient time to complete and return their ballot to meet the
Election Code’s received-by deadline. Id. at 2-3 (quoting USPS General Counsel and
Executive Vice President Thomas Marshall’s July 29, 2020 letter to the Secretary
(hereinafter “USPS General Counsel’s Letter”), discussed in detail infra).
Petitioner avers that this Court has the authority to act to protect electors’ right to
cast their ballot, as protected by Pennsylvania’s Free and Equal Elections Clause. It
emphasizes that “‘[c]ourt[s] possess broad authority to craft meaningful remedies’ when
‘regulations of law . . . impair the right of suffrage.’” Id. at 48-49 (quoting League of
Women Voters of Pa., 178 A.3d at 809, 822) (alterations in original). It observes that
courts have exercised that authority to provide equitable relief to voters faced with natural

[J-96-2020] - 24

A.24

disasters that impede their right to vote.

As an example, Petitioner highlights the

Commonwealth Court’s actions in In re General Election-1985, 531 A.2d 836, 838-39 (Pa.
Cmwlth. 1987), in which the court affirmed a two-week suspension in an election where
severe flooding prevented electors from safely voting due to “circumstances beyond their
control.” Petitioner asserts that Pennsylvania electors in the November General Election
similarly face a threat to their ability to vote due to no fault of their own, but instead due
to a perfect storm combining the dramatic increase in requested ballots due to the COVID19 pandemic and the inability of the USPS to meet the delivery standards required by the
Election Code.
Accordingly, Petitioner asks this Court to grant an injunction ordering the
Respondent to “lift the deadline in the Election Code across the state in a uniform
standard to allow any ballot postmarked by 8 p.m. on Election Night to be counted if it is
received by the deadline for ballots to be received” under the UOCAVA, specifically by
5:00 p.m. on Tuesday, November 10.19 Petition at 50, ¶ 178. Recognizing that the
Secretary recommends a three-day extension, as detailed below, Petitioner counters that
“[a] 7-day extension to the ballot receipt deadline is consistent with the USPS’s
recommendation to the Secretary that voters should mail their ballots to Boards no later
than October 27, 2020,” which is seven days prior to Election Day. Petitioner’s Brief at
53 (referencing USPS General Counsel’s Letter at 2). While it acknowledges that a
seven-day extension could impact other post-election deadlines as discussed infra, it

As adopted in Pennsylvania, the UOCAVA provides that military and overseas ballots
will be counted if received by the county board by “5:00 p.m. on the seventh day following
the election,” which this year will be November 10, 2020. 25 Pa.C.S. § 3511.
19

As an alternative remedy, Petitioner proposes that each ballot could have an
individualized deadline twenty-one days after the specific ballot is mailed by the county,
so long as it is received before the UOCAVA deadline. Petition at 50, ¶ 108, 179.
[J-96-2020] - 25

A.25

asserts that this Court has the authority to alter those deadlines to be consistent with the
relief granted in this case. Id. at 55.
As noted, the Secretary sought extraordinary jurisdiction to allow this Court to
resolve the various challenges to the mail-in ballot process in an orderly and timely
fashion before the impending General Election, where she estimates more than three
million Pennsylvanians will exercise their right to vote by mail. Secretary’s Brief at 1. The
Secretary observes that she previously advocated against a similar request for an
extension of the received-by deadline for mail-in and absentee ballots in the Crossey
case. She, however, reassessed her position following receipt of the USPS General
Counsel’s Letter, which she attaches to her Application. Secretary’s Application at 10,
Exhibit A.
Significantly, the USPS General Counsel’s Letter opined that “certain deadlines for
requesting and casting mail-in ballots are incongruous with the Postal Service’s delivery
standards,” providing for 2-5 day delivery for domestic First Class Mail and 3-10 day
delivery for domestic Marketing Mail. USPS General Counsel’s Letter at 1. As the parties
recognize, the Election Code designates October 27, 2020, as the last day for electors to
request a mail-in ballot. 25 P.S. § 3150.12a(a) (“Applications for mail-in ballots shall be
processed if received not later than five o'clock P.M. of the first Tuesday prior to the day
of any primary or election.”). Even if a county board were to process and mail a ballot the
next day by First Class Mail on Wednesday, October 28th, according to the delivery
standards of the USPS, the voter might not receive the ballot until five days later on
Monday, November 2nd, resulting in the impossibility of returning the ballot by mail before
Election Day, Tuesday November 3rd. The USPS General Counsel’s Letter, instead,
advised that voters should mail their ballots no later than October 27, 2020 in order to
meet the received-by deadline. USPS General Counsel’s Letter at 2. “This mismatch

[J-96-2020] - 26

A.26

[between the USPS’s delivery standards and the Election Code deadlines] creates a risk
that ballots requested near the deadline under state law will not be returned by mail in
time to be counted under [Pennsylvania’s Election Code].” Id. at 1.
In light of the information contained in the USPS General Counsel’s Letter, the
Secretary concludes that a temporary extension of the Election Code’s received-by
deadline is necessary for the upcoming General Election to ensure a free and equal
election as protected by Article I, Section 5 of the Pennsylvania Constitution. Secretary’s
Application at 27. The Secretary specifically asks that this Court order an extension of
the deadline to allow the counting of any ballot postmarked by Election Day and received
on or before the third day after Election Day, which is November 6, 2020. 20 Id. at 27-28.
The Secretary deems a three-day extension of the deadline, rather than the seven-day
extension sought by Petitioner, to be sufficient to address the potential delay in mailing
while also not disrupting other elements of election administration. Id. at 29.
The Secretary emphasizes that the remedy sought here is not the invalidation of
the Election Code’s received-by deadline, but rather the grant of equitable relief to extend
temporarily the deadline to address “mail-delivery delays during an on-going public health
disaster.” Secretary’s Brief at 18. As no party is seeking the invalidation of the receivedby deadline, the Secretary rejects the suggestion of Respondent and the Caucus that the
remedy would trigger the nonseverability provision of Act 77, reasoning that the Court
would be granting “a temporary short extension to address the exigencies of a natural
She specifically recommends that the Court “order that ballots mailed by voters by 8:00
p.m. on Election Day be counted if they are otherwise valid and received by the county
boards of election by November 6, 2020. Ballots received within this period that lack a
postmark or other proof of mailing, or for which the postmark or other proof of mailing is
illegible, should enjoy a presumption that they were mailed by Election Day.” Secretary’s
Application at 29. We observe that this proposal therefore requires that all votes be cast
by Election Day but does not disenfranchise a voter based upon the absence or illegibility
of a USPS postmark that is beyond the control of the voter once she places her ballot in
the USPS delivery system.
20

[J-96-2020] - 27

A.27

disaster” rather than “the invalidation of a statutory deadline.” Id. at 21 (referencing
Section 11 of Act 77 set forth infra). She emphasizes that the statutory deadline would
remain unchanged for future elections.
The Secretary observes that courts have previously granted temporary equitable
relief to address natural disasters, given that neither the Election Code nor the
Constitution “provides any procedure to follow when a natural disaster creates an
emergency situation that interferes with an election.” Id. at 19 (citing In re: General
Election-1985, 531 A.2d at 839).21 She argues that the current pandemic is equivalent to
other natural disasters and that it necessitates the requested extension of the Election
Code’s received-by deadline for mail-in ballots.
In contrast, Respondent contends that Petitioner asks this Court to rewrite the plain
language of Act 77 and to substitute its preferred ballot deadline for the statutory deadline
that resulted from the legislative compromise during the bi-partisan enactment of Act 77.
It emphasizes that this Court “recently reaffirmed [that] the judiciary ‘may not usurp the
province of the legislature by rewriting [statutes].’” Respondent’s Supplemental Brief at
16 (quoting In re Fortieth Statewide Investigating Grand Jury, 197 A.3d 712, 721 (Pa.
2018)).
Judicial restraint, according to Respondent, is especially necessary in regard to
election law, where this Court has long recognized that “[t]he power to regulate elections
is a legislative one, and has been exercised by the General Assembly since the
foundation of the government.” Id. at 17 (quoting Winston v. Moore, 91 A. 520, 522 (Pa.
1914)). Indeed, it observes that the United States Constitution dictates that “[t]he Times,
The Secretary observes that other jurisdictions have likewise granted temporary
extensions when faced with natural disasters, such as hurricanes. Secretary’s
Application at 28 (citing Fla. Democratic Party v. Scott, 215 F. Supp. 3d 1250, 1259 (N.D.
Fla. 2016); Georgia Coalition for the Peoples’ Agenda, Inc. v. Deal, 214 F. Supp. 3d 1344,
1345 (S.D. Ga. 2016)).
21

[J-96-2020] - 28

A.28

Places, and Manner of holding Elections for Senators and Representatives, shall be
prescribed in each state by the Legislature thereof,” subject to directives of Congress,
U.S. CONST. art. I, § 4, cl. 1, and that “[e]ach State shall appoint, in such Manner as the
Legislature thereof may direct,” electors for President and Vice President. U.S. CONST.
art. II, § 1, cl. 2.22

Respondent highlights special concerns relevant to Presidential

elections, emphasizing that “‘[w]ith respect to a Presidential election,’ state courts must
‘be mindful of the legislature’s role under Article II in choosing the manner of appointing
electors.’” Respondent’s Supplemental Brief at 20 (quoting Bush v. Gore, 531 U.S. 98,
114 (2000) (Rehnquist, C.J., concurring)).
Respondent additionally warns that if this Court were to deem application of the
deadline unconstitutional and substitute a judicially-determined deadline, it would trigger
the nonseverability provision of Act 77, which would invalidate the entirety of the Act,
including all provisions creating universal mail-in voting. Specifically, Section 11 provides:
“Sections 1, 2, 3, 3.2, 4, 5, 5.1, 6, 7, 8, 9 and 12 of this act are nonseverable. If any
provision of this act or its application to any person or circumstances is held invalid, the
remaining provisions or applications of this act are void.” Act 77, § 11. It emphasizes
that this Court has previously deemed nonseverability provisions to be constitutionally
proper and additionally recognized that nonseverability provisions are crucial to the
legislative process as they “may be essential to securing the support necessary to enact
the legislation in the first place.” Respondent’s Supplemental Brief at 18 (citing Stilp v.
Commonwealth, 905 A.2d 918, 978 (Pa. 2006)). Respondent asserts that it is clear that
the severability provision in Act 77 “was intended to preserve the compromise struck” in
the bipartisan enactment. Id. at 19.
Respondent further observes that the Pennsylvania Constitution specifically directs the
Legislature to “provide a manner in which, and the time and place at which” a qualified
elector can submit an absentee ballot. PA. CONST. art. VII, § 14(a).
22

[J-96-2020] - 29

A.29

On the merits, Respondent asserts that the plain language of the Election Code
setting the deadline for submission of ballots by 8:00 p.m. on Election Day does not violate
the Free and Equal Elections Clause but instead provides “a neutral, evenhanded rule
that applies to all Pennsylvania voters equally.” Respondent’s Answer to the Secretary’s
Application at 21. It emphasizes that numerous courts, including this Court during the
June Primary, have upheld the application of mail-in deadlines during the COVID-19
pandemic. Respondent’s Supplemental Brief at 24 (citing, inter alia, Disability Rights Pa.
v. Boockvar, No. 83 MM 2020, 2020 WL 2820467 (Pa. May 15, 2020)).
Respondent additionally rejects the Secretary’s assertion that the deadline should
be extended based upon the threat of mail delays. It avers that these concerns are
“speculative at best.”

Id. at 25.

Moreover, it contends that “given Pennsylvania’s

unparalleled and generous absentee and mail-in voting period, any voter’s inability to cast
a timely ballot is not caused by the Election Day received-by deadline but instead by their
own failure to take timely steps to effect completion and return of their ballot.” Id. at 2627 (internal citation and quotation marks omitted).
Respondent further supports its argument by attaching to its Supplemental Brief a
declaration of USPS Vice President Angela Curtis, which in turn attaches the statement
provided by Postmaster General Louis DeJoy to the Senate Committee on Homeland
Security and Governmental Affairs on August 21, 2020 and his statement of August 24,
2020, to the House Committee on Oversight and Reform. In his statement, Postmaster
General Louis DeJoy addressed public accusations that the implementation of various
cost-saving reforms had allegedly resulted in delays in mail delivery that threatened the
timely delivery of election mail.
While disputing the validity of the accusations, the Postmaster General provided
the following commitments relating to the delivery of election mail:

[J-96-2020] - 30

A.30

[R]etail hours at Post Offices won’t be changed, and mail
processing equipment and blue collection boxes won’t be
removed during this period. No mail processing facilities will
be closed and we have terminated the pilot program that
began in July that expedited carrier departures to their
delivery routes, without plans to extend or expand it. To clear
up any confusion, overtime has, and will continue to be,
approved as needed. Finally, effective October 1, 2020, we
will engage standby resources in all areas of our operations,
including transportation, to satisfy any unforeseen demand for
the election.
Statement of Postmaster General Louis DeJoy provided to Senate Committee on
Homeland Security and Governmental Affairs Hearing of Aug. 21, 2020, at 14; Statement
of Postmaster General Louis DeJoy provided to House Committee on Oversight and
Reform of Aug. 24, 2020, at 14. Respondent emphasizes that Postmaster General DeJoy
also asserted that the “USPS has not changed [its] delivery standards, [its] processing,
[its] rules, or [its] prices for Election Mail[,]” and that it “can, and will, handle the volume
of Election Mail [it] receive[s].” Respondent’s Supplemental Brief at 10.
Finally, Respondent argues that moving the received-by deadline until after
Election Day would undermine the federal designation of a uniform Election Day, as set
forth in three federal statues, specifically 3 U.S.C. § 1 (“The electors of President and
Vice President shall be appointed, in each State, on the Tuesday next after the first
Monday in November, every fourth year succeeding every election of a President and
Vice President”); 2 U.S.C. § 7 (“The Tuesday next after the 1st Monday in November, in
every even numbered year, is established as the day for the election, in each of the States
and Territories of the United States, of Representatives and Delegates to the Congress
commencing on the 3d day of January next thereafter.”); and 2 U.S.C. § 1 (“At the regular
election held in any State next preceding the expiration of the term for which any Senator
was elected to represent such State in Congress is regularly by law to be chosen, a United

[J-96-2020] - 31

A.31

States Senator from said State shall be elected by the people thereof for a term
commencing on the 3d day of January next thereafter.”).23
The Caucus also files a brief with this Court arguing against the extension of the
deadline for mail-in votes. It asserts that “[t]here is no constitutional right to vote by mail”
and that states have broad authority to enact regulations to ensure the integrity of its
elections, including mail-in ballots, as was done in Act 77, including by setting a deadline
for the receipt of ballots. Caucus’s Brief at 19.
The Caucus warns that granting an extension of the mail-in ballot received-by
deadline in this case “would have a cascading effect on other election code deadlines,
thereby causing chaos for election officials and confusion for voters.”

Id. at 26. It

observes that the Election Code requires that Boards begin canvassing absentee and
mail-in ballots within three days of Election Day and shall continue through the eighth day
following the Election. Id. at 28 (citing 25 P.S. § 3146.8(g)(2)). Additionally, the Boards
shall submit the unofficial returns to the Secretary on the Tuesday following the Election,
and the Secretary must determine whether a recount is required within nine days of
Election Day, citing 25 P.S. § 3154(f), (g)(2), and the Boards must certify the final results
to the Secretary no later than twenty days after Election Day, citing 25 P.S. § 2642(k). It
additionally asserts that federal law requires all state recounts and challenges to be
“resolved at least 6 days prior to the meeting of electors,” which it asserts this year is
December 14. Caucus’s Brief at 28 n.17 (citing 3 U.S.C. §§ 1, 5). The Caucus therefore
urges this Court to refrain from altering the received-by deadline for mail-in ballots,
asserting that the “requested injunction would override the election deadlines which were
In so arguing, Respondent seemingly ignores the fact that allowing the tabulation of
ballots received after Election Day does not undermine the existence of a federal Election
Day, where the proposal requires that ballots be cast by Election Day, similar to the
procedure under federal and state law allowing for the tabulation of military and overseas
ballots received after Election Day.
23

[J-96-2020] - 32

A.32

fully debated and properly enacted by the peoples’ representatives in the Pennsylvania
General Assembly.” Id. at 29.
Unlike other provisions of Act 77 currently before this Court, we are not asked to
interpret the statutory language establishing the received-by deadline for mail-in ballots.
Indeed, there is no ambiguity regarding the deadline set by the General Assembly:
Deadline.--Except as provided under 25 Pa.C.S. § 3511[24]
(relating to receipt of voted ballot), a completed mail-in ballot
must be received in the office of the county board of elections
no later than eight o'clock P.M. on the day of the primary or
election.
25 P.S. § 3150.16(c). Moreover, we are not asked to declare the language facially
unconstitutional as there is nothing constitutionally infirm about a deadline of 8:00 p.m.
on Election Day for the receipt of ballots. The parties, instead, question whether the

Section 3511 addresses the timeline for the return of ballots of uniform military and
oversees voters and provides for the counting of such votes if delivered to the county
board by 5 p.m. on the seventh day after Election Day:
24

§ 3511. Receipt of voted ballot
(a) Delivery governs.--A valid military-overseas ballot cast
under section 3509 (relating to timely casting of ballot) shall
be counted if it is delivered by 5 p.m. on the seventh day
following the election to the address that the appropriate
county election board has specified.
(b) Rule regarding postmarks.--If, at the time of completing
a military-overseas ballot and balloting materials, the voter
has declared under penalty of perjury that the ballot was
timely submitted, the ballot may not be rejected on the basis
that it has a late postmark, an unreadable postmark or no
postmark.
25 Pa.C.S. § 3511.
[J-96-2020] - 33

A.33

application of the statutory language to the facts of the current unprecedented situation
results in an as-applied infringement of electors’ right to vote.
In considering this issue, we reiterate that the Free and Equal Elections Clause of
the Pennsylvania Constitution requires that “all aspects of the electoral process, to the
greatest degree possible, be kept open and unrestricted to the voters of our
Commonwealth, and, also, conducted in a manner which guarantees, to the greatest
degree possible, a voter’s right to equal participation in the electoral process for the
selection of his or her representatives in government.” League of Women Voters, 178
A.3d at 804. Nevertheless, we also recognize that “the state may enact substantial
regulation containing reasonable, non-discriminatory restrictions to ensure honest and
fair elections that proceed in an orderly and efficient manner.” Banfield v. Cortes, 110
A.3d 155, 176–77 (Pa. 2015) (internal citation and quotation marks omitted).
As we have recently seen, an orderly and efficient election process can be crucial
to the protection of a voter’s participation in that process. Indeed, the struggles of our
most populous counties to avoid disenfranchising voters while processing the
overwhelming number of pandemic-fueled mail-in ballot applications during the 2020
Primary demonstrates that orderly and efficient election processes are essential to
safeguarding the right to vote. An elector cannot exercise the franchise while her ballot
application is awaiting processing in a county election board nor when her ballot is sitting
in a USPS facility after the deadline for ballots to be received.
We are fully cognizant that a balance must be struck between providing voters
ample time to request mail-in ballots, while also building enough flexibility into the election
timeline to guarantee that ballot has time to travel through the USPS delivery system to
ensure that the completed ballot can be counted in the election. Moreover, we recognize
that the determination of that balance is fully enshrined within the authority granted to the

[J-96-2020] - 34

A.34

Legislature under the United States and Pennsylvania Constitutions. See U.S. CONST.
art. I, § 4, cl. 1; id. art. II, § 1, cl. 2.
Nevertheless, we find the Commonwealth Court’s rationale in In re: General
Election-1985 germane to the current challenge to the application of the ballot receivedby deadline. In that case, the court recognized that, while neither the Constitution nor the
Election Code specified “any procedure to follow when a natural disaster creates an
emergency situation that interferes with an election,” courts could look to the direction of
25 P.S. § 3046. In re General Election-1985, 531 A.2d at 839. As noted, Section 3046
provides courts of common pleas the power, on the day of an election, to decide “matters
pertaining to the election as may be necessary to carry out the intent” of the Election
Code, which the Commonwealth Court properly deemed to include providing “an equal
opportunity for all eligible electors to participate in the election process,” which in that
case necessitated delaying the election during a flood. Id.
We have no hesitation in concluding that the ongoing COVID-19 pandemic
equates to a natural disaster. See Friends of Devito v. Wolf, 227 A.3d 872, 888 (Pa.
2020) (agreeing “that the COVID-19 pandemic qualifies as a ‘natural disaster’ under the
Emergency Code”).

Moreover, the effects of the pandemic threatened the

disenfranchisement of thousands of Pennsylvanians during the 2020 Primary, when
several of the Commonwealth’s county election boards struggled to process the flow of
mail-in ballot applications for voters who sought to avoid exposure to the virus. See, e.g.,
Delaware County Board of Elections’ Answer to Petition at 15, ¶ 77 (acknowledging that
it “mailed out thousands of ballots in the twenty-four hour period preceding the election”).
It is beyond cavil that the numbers of mail-in ballot requests for the Primary will be dwarfed
by those applications filed during the upcoming highly-contested Presidential Election in
the midst of the pandemic where many voters are still wary of congregating in crowded

[J-96-2020] - 35

A.35

locations such as polling places. We acknowledge that the Secretary has estimated that
nearly three million Pennsylvanians will apply for mail-in applications, in contrast to the
1.5 million cast during the Primary. Secretary’s Brief at 1.
In light of these unprecedented numbers and the near-certain delays that will occur
in Boards processing the mail-in applications, we conclude that the timeline built into the
Election Code cannot be met by the USPS’s current delivery standards, regardless of
whether those delivery standards are due to recent changes in the USPS’s logistical
procedures or whether the standards are consistent with what the General Assembly
expected when it enacted Act 77. In this regard, we place stock in the USPS’s General
Counsel’s expression that his client could be unable to meet Pennsylvania’s statutory
election calendar. General Counsel’s Letter at 2. The Legislature enacted an extremely
condensed timeline, providing only seven days between the last date to request a mail-in
ballot and the last day to return a completed ballot. While it may be feasible under normal
conditions, it will unquestionably fail under the strain of COVID-19 and the 2020
Presidential Election, resulting in the disenfranchisement of voters.
Under our Extraordinary Jurisdiction, this Court can and should act to extend the
received-by deadline for mail-in ballots to prevent the disenfranchisement of voters. We
have previously recognized that, in enforcing the Free and Equal Elections Clause, this
“Court possesses broad authority to craft meaningful remedies when required.” League
of Women Voters, 178 A.3d at 822 (citing PA. CONST., art. V, §§ 1, 2, 10; 42 Pa.C.S. § 726
(granting power to “enter a final order or otherwise cause right and justice to be done”)).
We additionally conclude that voters’ rights are better protected by addressing the
impending crisis at this point in the election cycle on a statewide basis rather than allowing
the chaos to brew, creating voter confusion regarding whether extensions will be granted,

[J-96-2020] - 36

A.36

for how long, and in what counties.25 Instead, we act now to allow the Secretary, the
county election boards, and most importantly, the voters in Pennsylvania to have clarity
as to the timeline for the 2020 General Election mail-in ballot process.
After consideration, we adopt the Secretary’s informed recommendation of a threeday extension of the absentee and mail-in ballot received-by deadline to allow for the
tabulation of ballots mailed by voters via the USPS and postmarked by 8:00 p.m. on
Election Day to reduce voter disenfranchisement resulting from the conflict between the
Election Code and the current USPS delivery standards, given the expected number of
Pennsylvanians opting to use mail-in ballots during the pandemic.26 We observe that this
extension provides more time for the delivery of ballots while also not requiring alteration
of the subsequent canvassing and reporting dates necessary for the Secretary’s final
reporting of the election results. In so doing, we emphasize that the Pennsylvania’s
election laws currently accommodate the receipt of certain ballots after Election Day, as
We recognize that we rejected a very similar argument presented in Disability Rights
Pennsylvania on May 15, 2020, weeks prior to the Primary. Disability Rights Pa. v.
Boockvar, No. 83 MM 2020, 2020 WL 2820467 (Pa. May 15, 2020). At that time, the
potential of voter disenfranchisement was speculative as many unknowns existed relating
to the magnitude of the pandemic, the extent to which voters would seek mail-in
applications, and the ability of Boards to handle the increase. Those uncertainties no
longer exist in light of our experience in the 2020 Primary where thousands of voters
would have been disenfranchised but for the emergency actions of the courts of common
pleas and the Governor.
25

We likewise incorporate the Secretary’s recommendation addressing ballots received
within this period that lack a postmark or other proof of mailing, or for which the postmark
or other proof of mailing is illegible. Accordingly, in such cases, we conclude that a ballot
received on or before 5:00 p.m. on November 6, 2020, will be presumed to have been
mailed by Election Day unless a preponderance of the evidence demonstrates that it was
mailed after Election Day.
26

We emphasize that voters utilizing the USPS must cast their ballots prior to 8:00 p.m. on
Election Day, like all voters, including those utilizing drop boxes, as set forth supra. We
refuse, however, to disenfranchise voters for the lack or illegibility of a postmark resulting
from the USPS processing system, which is undeniably outside the control of the
individual voter.
[J-96-2020] - 37

A.37

it allows the tabulation of military and overseas ballots received up to seven days after
Election Day. 25 Pa.C.S. § 3511. We conclude that this extension of the received-by
deadline protects voters’ rights while being least at variance with Pennsylvania’s
permanent election calendar, which we respect and do not alter lightly, even temporarily.
C. COUNT III OF THE PETITION FOR REVIEW
In Count III of its petition, Petitioner seeks to require that the Boards contact
qualified electors whose mail-in or absentee ballots contain minor facial defects resulting
from their failure to comply with the statutory requirements for voting by mail, and provide
them with an opportunity to cure those defects. More specifically, Petitioner submits that
when the Boards have knowledge of an incomplete or incorrectly completed ballot as well
as the elector’s contact information, the Boards should be required to notify the elector
using the most expeditious means possible and provide the elector a chance to cure the
facial defect up until the UOCAVA deadline of November 10, 2020, discussed supra.
Petitioner bases this claim on its assertion that the multi-stepped process for voting
by mail-in or absentee ballot inevitably leads to what it describes as minor errors, such as
not completing the voter declaration or using an incorrect ink color to complete the ballot.
See 25 P.S. § 3146.6(a) (explaining the process for voting by absentee ballot, which
requires, inter alia, an elector to mark the ballot using only certain writing implements and
ink; and to fill out, date, and sign the declaration printed on the outer envelope); id.
§ 3150.16(a) (explaining the process for voting by mail-in ballot, which imposes the same
requirements). According to Petitioner, these minor oversights result in many ballots
being rejected and disenfranchising voters who believe they have exercised their right to
vote.
Petitioner submits that voters should not be disenfranchised by technical errors or
incomplete ballots, and that the “notice and opportunity to cure” procedure ensures that

[J-96-2020] - 38

A.38

all electors who desire to cast a ballot have the opportunity to do so, and for their ballot
to be counted. Petitioner further claims there is no governmental interest in either: (1)
requiring the formalities for the completion of the outside of the mailing envelope to be
finalized prior to mailing as opposed to prior to counting, or (2) rejecting the counting of a
ballot so long as ballots continue to arrive under federal law, which is the UOCAVA
deadline of seven days after Election Day.
As legal support for its position, Petitioner relies upon the Free and Equal Elections
Clause. PA. CONST. art. I, § 5 (“Elections shall be free and equal; and no power, civil or
military, shall at any time interfere to prevent the free exercise of the right of suffrage.”);
see also Winston, 91 A. at 523 (explaining that elections are “free and equal” for
constitutional purposes when, inter alia, “the regulation of the right to exercise the
franchise does not deny the franchise itself, or make it so difficult as to amount to a denial;
and when no constitutional right of the qualified elector is subverted or denied him”). It
further emphasizes that election laws should be construed liberally in favor of voters, and
that “[t]echnicalities should not be used to make the right of the voter insecure.” Appeal
of James, 105 A.2d 64, 65-66 (Pa. 1954). Petitioner also asserts that ballots with minor
irregularities should not be rejected, except for compelling reasons and in rare
circumstances. Id. at 66. Based on these legal principles, as well as this Court’s “broad
authority to craft meaningful remedies” when necessary, League of Women Voters, 178
A.3d at 822, Petitioner claims that the Pennsylvania Constitution and spirit of the Election
Code require the Boards to provide a “notice and opportunity to cure” procedure, and that
this Court has the authority to afford the relief it seeks.
Unlike the other claims asserted herein, the Secretary opposes Petitioner’s request
for relief in this regard. She counters that there is no statutory or constitutional basis for
requiring the Boards to contact voters when faced with a defective ballot and afford them

[J-96-2020] - 39

A.39

an opportunity to cure defects. The Secretary further notes that, while Petitioner relies
upon the Free and Equal Elections Clause, that Clause cannot create statutory language
that the General Assembly chose not to provide. See Winston, 91 A. at 522 (noting that
“[t]he power to regulate elections is legislative”).
The Secretary submits that so long as a voter follows the requisite voting
procedures, he or she “will have an equally effective power to select the representative
of his or her choice.” League of Women Voters, 178 A.3d at 809. Emphasizing that
Petitioner presents no explanation as to how the Boards would notify voters or how the
voters would correct the errors, the Secretary further claims that, while it may be good
policy to implement a procedure that entails notice of defective ballots and an opportunity
to cure them, logistical policy decisions like the ones implicated herein are more properly
addressed by the Legislature, not the courts.
Respondent echoes the Secretary’s opposition to Petitioner’s request for relief. 27
Specifically, it reiterates that Petitioner has failed to assert a legal basis to support
imposing a “notice and opportunity to cure” procedure, noting that the Free and Equal
Elections Clause does not enable courts to rewrite the Election Code to align with a
litigant’s notion of good election policy. Respondent emphasizes that “ballot and election
laws have always been regarded as peculiarly within the province of the legislative branch
of government,” Winston, 91 A. at 522, and that to the extent restrictions are burdensome,
relief should be sought in the Legislature. Id. at 525.
Respondent also discusses the practical implications of granting Petitioner’s
request, expressing concern that implementing a “notice and opportunity to cure”
procedure would be a monumental undertaking requiring the expenditure of significant
resources, particularly on the eve of an election. Respondent thus reiterates that the
27

The Caucus does not advance argument on the merits of this issue.
[J-96-2020] - 40

A.40

Legislature, not this Court, is the entity best suited to address the procedure proposed by
Petitioner.
Respondent adds that the tardiness of Petitioner’s request is alone a sufficient
basis to deny it and that, in any event, Petitioner cannot show a “plain, palpable and clear
abuse of the [legislative] power which actually infringes on the rights of the electors” with
respect to this claim. Patterson v. Barlow, 60 Pa. 54, 75 (1869). Respondent notes that,
to the contrary, a requirement that voters follow the appropriate procedures when filling
out their ballots easily passes constitutional muster.
Upon review, we conclude that the Boards are not required to implement a “notice
and opportunity to cure” procedure for mail-in and absentee ballots that voters have filled
out incompletely or incorrectly. Put simply, as argued by the parties in opposition to the
requested relief, Petitioner has cited no constitutional or statutory basis that would
countenance imposing the procedure Petitioner seeks to require (i.e., having the Boards
contact those individuals whose ballots the Boards have reviewed and identified as
including “minor” or “facial” defects—and for whom the Boards have contact information—
and then afford those individuals the opportunity to cure defects until the UOCAVA
deadline).
While the Pennsylvania Constitution mandates that elections be “free and equal,”
it leaves the task of effectuating that mandate to the Legislature. Winston, 91 A. at 522.
As noted herein, although the Election Code provides the procedures for casting and
counting a vote by mail, it does not provide for the “notice and opportunity to cure”
procedure sought by Petitioner. To the extent that a voter is at risk for having his or her
ballot rejected due to minor errors made in contravention of those requirements, we agree
that the decision to provide a “notice and opportunity to cure” procedure to alleviate that
risk is one best suited for the Legislature. We express this agreement particularly in light

[J-96-2020] - 41

A.41

of the open policy questions attendant to that decision, including what the precise
contours of the procedure would be, how the concomitant burdens would be addressed,
and how the procedure would impact the confidentiality and counting of ballots, all of
which are best left to the legislative branch of Pennsylvania’s government. Thus, for the
reasons stated, the Petitioner is not entitled to the relief it seeks in Count III of its petition.
D. COUNT IV OF THE PETITION FOR REVIEW
In Count IV, Petitioner seeks a declaration that under Act 77, the Boards must
“clothe and count naked ballots,” i.e., place ballots that were returned without the secrecy
envelope into a proper envelope and count them, rather than invalidate them. It further
seeks a preliminary injunction prohibiting the Boards from excluding such ballots from the
canvass.
To understand the nature of a “naked ballot,” as well as Petitioner’s claim that such
ballots are valid and should be counted, we examine the relevant provisions of Act 77.
The Act directs Boards to send to the qualified mail-in elector an official mail-in ballot, the
list of candidates when authorized, the uniform instructions as prescribed by the
Secretary, and two envelopes to be returned to the Boards, as described in detail infra.
25 P.S. § 3150.14(c).
Section 3150.14(a) (“Envelopes for official mail-in ballots”) explains the nature of
the envelopes sent to the mail-in voter. This provision directs the Boards to “provide two
additional envelopes for each official mail-in ballot of a size and shape as prescribed by
the Secretary of the Commonwealth, in order to permit the placing of one within the other
and both within the mailing envelope” addressed to the elector. Id. § 3150.14(a). On the
smaller of the two envelopes to be returned to the Boards shall be printed only the words
“Official Election Ballot.” Id. On the larger envelope shall be printed: (1) “the form of the
declaration of the elector;” (2) the “name and address of the county board of election of

[J-96-2020] - 42

A.42

the proper county;” and (3) “information indicating the local election district of the mail-in
voter.” Id.
As noted, Section 3150.16(a) directs the mail-in elector to mark the ballot in secret
with the enumerated ink or lead pencil and then fold the ballot, enclose it, and secure it in
the smaller envelope on which is printed “Official Election Ballot.” 25 P.S. § 3150.16(a).
The statute further directs the mail-in elector to place the smaller envelope into the second
envelope on which is printed the form of declaration of the elector, the elector’s local
election district, and the address of the elector’s county board of election. Id. The statute
next directs the mail-in elector to fill out, date, and sign the declaration printed on the
second envelope, and secure the ballot and send it by mail or deliver it in person to his
or her county board of election. Id. A ballot is “naked” for purposes of this action if the
mail-in elector fails to utilize the smaller envelope on which is printed “Official Election
Ballot,” and, instead, places the official election ballot directly into the second envelope,
upon which is printed the form of declaration of the elector and the address of the elector’s
county board of election.
Act 77 additionally sets forth the procedure by which mail-in ballots are canvassed.
See id. § 3146.8(a) (providing that mail-in ballots “shall be canvassed in accordance with
subsection (g)”). Relevant thereto, the Act directs that mail-in ballots cast by electors who
died prior to Election Day shall be rejected and not counted. Id. § 3146.8(d). Additionally,
the Act provides that mail-in ballots shall be counted as long as: (1) election officials verify
the ballots by comparing the voter’s declaration with the official voting list; and (2) the
ballots are not challenged on the ground that the voter is unqualified to vote.

Id.

§§ 3146.8(g)(4); 3150.12b(a)(2). Notably, Section 3146.8(g)(4)(ii) provides that if any of
the envelopes on which are printed “Official Election Ballot” “contain any text, mark or
symbol which reveals the identity of the elector, the elector’s political affiliation or the

[J-96-2020] - 43

A.43

elector’s candidate preference, the envelopes and the ballots contained therein shall be
set aside and declared void.” Id. § 3146.8(g)(4)(ii).
The crux of Petitioner’s position is that although Act 77 directs a mail-in voter to
utilize the secrecy envelope in submitting the mail-in ballot, there is no provision in the
Election Code authorizing the Boards to discard a ballot on grounds that the voter failed
to insert the ballot into the secrecy envelope before returning it to the Boards. Rather,
Petitioner asserts, the statute directs the Boards to reject mail-in ballots only if the mailin elector died prior to Election Day, id. § 3146.8(d), the ballot is unverified or challenged
on grounds that the mail-in voter was unqualified to vote, id. § 3146.8(g)(4), or the ballot
is returned in an “Official Election Ballot” envelope that contains “any text, mark or symbol
which reveals the identity of the elector, the elector’s political affiliation or the elector’s
candidate preference.” Id. § 3146.8(g)(4)(ii). Petitioner concludes that the failure to place
the ballot in a secrecy envelope does not fall within these enumerated statutory grounds
which would result in an invalid mail-in ballot.
Moreover, Petitioner emphasizes that the General Assembly was aware of how to
invalidate ballots for lack of a secrecy envelope, as it expressly did so in another provision
of the Election Code regarding provisional ballots. See id. § 3050(a.4)(5)(ii)(C) (providing
that a “provisional ballot shall not be counted if: . . . a provisional ballot envelope does not
contain a secrecy envelope”).28 Had the General Assembly intended to invalidate mailin ballots on this basis, Petitioner submits, the Legislature would have included a similar
provision in Act 77, but chose not to do so.
Absent statutory authority directing the Boards to invalidate a ballot based
exclusively on the lack of a secrecy envelope, Petitioner contends that the refusal to
A provisional ballot is a ballot cast by an individual who claims to be properly registered
and eligible to vote at the election district, but whose name does not appear on the district
register and whose registration cannot be determined. 25 P.S. § 3050(a.4)(1).
28

[J-96-2020] - 44

A.44

canvass and count ballots cast without a secrecy envelope violates the Election Code, as
well as the rights of electors to have their vote counted under the Free and Equal Elections
Clause. It posits that rather than disenfranchising the voter in contravention of these
edicts, the Boards could take corrective measures to protect privacy, such as placing the
naked ballot inside a replacement secrecy envelope before canvassing.
Accordingly, Petitioner requests a declaration that naked ballots must be counted,
as well as injunctive relief requiring Boards to undertake reasonable measures to protect
the privacy of naked ballots cast by mail-in electors.
The Secretary’s position aligns with Petitioner on this issue as she agrees that the
counting of naked ballots is permitted by the Election Code and furthers the right to vote
under the Free and Equal Elections Clause and the First and Fourteenth Amendments to
the United States Constitution.29
The Secretary contends that the secrecy envelope procedure set forth in Section
3150.16(a) is merely directory, and that this Court’s longstanding precedents establish
that ballots should not be disqualified based upon the failure to follow directory provisions.
See Bickhart, 845 A.3d at 803 (holding that although the Election Code provides that an
elector may cast a write-in vote for any person not printed on the ballot, a write-in vote for
a candidate whose name, in fact, appears on the ballot is not invalid where there is no

The Secretary’s position herein is consistent with the directive that the Department of
State distributed to the counties on May 28, 2020, indicating that there is no statutory
requirement nor any authority for setting aside an absentee or mail-in ballot exclusively
because the voter forgot to insert it into the official election ballot envelope. See Exhibit
B to Petition, Directive of Deputy Secretary for Elections and Commissions Jonathan M.
Marks to the county election directors, May 28, 2020. The directive further indicated that
“[t]o preserve the secrecy of such ballots, the board of elections in its discretion may
develop a process by which the members of the pre-canvass or canvass boards insert
these ballots into empty official ballot envelopes or privacy sleeves until such time as they
are ready to be tabulated.” Id. See also Exhibit J to Petition, Guidance for Missing Official
Election Ballot Envelopes.
29

[J-96-2020] - 45

A.45

evidence of fraud and the voter’s intent is clear); Wieskerger Appeal, 290 A.2d 108, 109
(Pa. 1972) (holding that the elector’s failure to mark the ballot with the statutorily
enumerated ink color does not render the ballot invalid unless there is a clear showing
that the ink was used for the purpose of making the ballot identifiable or otherwise
indicating fraud).
The Secretary further opines that no fraud arises from counting naked ballots,
considering that the naked ballot remains sealed in an envelope and the sealed ballot is
certified by the elector. Accordingly, the Secretary concludes that no voter should be
disenfranchised for failing to place his or her mail-in ballot in the secrecy envelope before
returning it to the Boards.
In response, Respondent argues that the statutory language of Section
3150.16(a), providing that the mail-in elector “shall . . . enclose and securely seal the
[ballot] in the envelope on which is printed, stamped or endorsed ‘Official Election Ballot,’”
is clear and constitutes a mandatory requisite to casting a mail-in ballot, and having that
ballot counted. It relies on In re Canvass of Absentee Ballots of Nov. 4, 2003 Gen.
Election, 843 A.2d 1223 (Pa. 2004) (“Appeal of Pierce”), where this Court held that the
use of the term “shall” in Section 3146.6(a) of the Election Code, providing that the elector
“shall” send an absentee ballot or deliver the ballot in person, carries a mandatory
meaning, thereby precluding third parties from hand-delivering absentee ballots to county
election boards, and invalidating those ballots that were hand-delivered by a third party.
Respondent submits that Section 3150.16(a) requires the same invalidation of ballots
where the mandatory statutory requisite of enclosing the ballot in a secrecy envelope is
ignored.
Respondent observes that the Election Code further directs election officials to “set
aside and declare[] void” a ballot whose secrecy envelope contains “any text, mark, or

[J-96-2020] - 46

A.46

symbol which reveals the identity of the elector, the elector’s political affiliation or the
elector’s candidate preference.” 25 P.S. § 3146.8(g)(4)(ii). Citing Appeal of Weiskerger,
supra, it argues that the purpose of this provision is to prevent the disclosure of the
elector’s identity. Respondent posits that a ballot unclothed by a secrecy envelope and
placed directly in the outer envelope also discloses the elector’s identity because the
outer envelope contains the elector’s signed declaration. Thus, it concludes, Section
3146.8(g)(4)(ii) requires invalidation of any ballot contained in an envelope that reveals
the identity of the voter, regardless of whether that envelope is a secrecy envelope or an
outer envelope. To hold to the contrary, Respondent argues, would violate Article VII,
Section 4 of the Pennsylvania Constitution, which provides, in relevant part, that “secrecy
in voting shall be preserved.” PA. CONST. art. VII, § 4.30
Respondent discounts the Secretary’s suggestion that because there is no fraud
involved in the submission of a naked ballot, the ballot should be counted. The secrecy
envelope provision of the statute, in Respondent’s view, advances the distinct
constitutional interest of protecting the sanctity of the ballot by preventing the ballot from
disclosing the elector’s identity. The significance of this interest, it submits, distinguishes
this matter from cases involving noncompliance with minor procedural demands set forth
in the Election Code, such as the color of ink used to mark a ballot or the listing of a writein candidate whose name already appears on the ballot.

Accordingly, Respondent

requests that we deny Petitioner’s request for declaratory and injunctive relief.
The Caucus reiterates all of the arguments expressed by Respondent. It contends
that in addition to violating voter secrecy, the counting of naked ballots raises the concern
of voter fraud. It contends that when a ballot arrives at the county election board without
Article VII, Section 4 (“Method of elections; secrecy in voting”) states, in full, that “[a]ll
elections by the citizens shall be by ballot or by such other method as may be prescribed
by law: Provided, That secrecy in voting be preserved.” PA CONST. art. VII, § 4.
30

[J-96-2020] - 47

A.47

the protective shield of a sealed privacy envelope, the election official cannot guarantee
that the ballot travelled from the voter’s hand to the county election board without
compromise. It argues that there is no way for the election official to verify that the vote
was accurately recorded, because the mere act of ascertaining the voter’s identity from
the elector’s declaration may violate the secrecy protections of Article VII, Section 4. The
Caucus concludes that the only way to be certain that no fraud has taken place is to reject
all naked ballots.
Turning now to our analysis, we observe that, in determining the propriety of naked
ballots, we must ascertain the General Assembly’s intention by examining the statutory
text of the secrecy envelope provision to determine whether it is mandatory or directory,
as that will govern the consequences for non-compliance. See JPay, Inc. v. Dep’t of Corr.
& Governor's Office of Admin., 89 A.3d 756, 763 (Pa. Cmwlth. 2014) (internal citation
omitted) (observing that “[w]hile both mandatory and directory provisions of the
Legislature are meant to be followed, the difference between a mandatory and directory
provision is the consequence for non-compliance: a failure to strictly adhere to the
requirements of a directory statute will not nullify the validity of the action involved”).
Upon careful examination of the statutory text, we conclude that the Legislature
intended for the secrecy envelope provision to be mandatory. We respectfully reject the
contentions of Petitioner and the Secretary that because the General Assembly did not
delineate a remedy narrowly linked to the mail-in elector’s failure to utilize a secrecy
envelope, the language of the Election Code is directory, and an elector’s violation of the
command inconsequential.
As noted, Section 3150.16(a) provides:
[The mail-in elector] shall, in secret, . . . enclose and securely seal the
[ballot] in the envelope on which is printed, stamped or endorsed “Official
Election Ballot.” This envelope shall then be placed in the second one, on
which is printed the form of declaration of the elector, and the address of
[J-96-2020] - 48

A.48

the elector’s county board of election and the local election district of the
elector.
Id.
This statutory text must be read in pari materia31 with Subsection 3146.8(g)(4)(ii),
which also speaks directly to secrecy envelopes, providing:
If any of the envelopes on which are printed, stamped or endorsed the
words ‘Official Election Ballot’ contain any text, mark or symbol which
reveals the identity of the elector, the elector’s political affiliation or the
elector’s candidate preference, the envelopes and the ballots contained
therein shall be set aside and declared void.
25 P.S. § 3146.8(g)(4)(ii).
These provisions make clear the General Assembly’s intention that, during the
collection and canvassing processes, when the outer envelope in which the ballot arrived
is unsealed and the sealed ballot removed, it should not be readily apparent who the
elector is, with what party he or she affiliates, or for whom the elector has voted. The
secrecy envelope properly unmarked and sealed ensures that result, unless it is marked
with identifying information, in which case that goal is compromised. Whatever the
wisdom of the requirement, the command that the mail-in elector utilize the secrecy
envelope and leave it unblemished by identifying information is neither ambiguous nor
unreasonable.

31

Section 1932 of our Statutory Construction Act, “Statutes in pari materia,” provides:
(a) Statutes or parts of statutes are in pari materia when they relate to the
same persons or things or to the same class of persons or things.
(b) Statutes in pari materia shall be construed together, if possible, as one
statute.

1 Pa.C.S. § 1932.
[J-96-2020] - 49

A.49

As noted cogently by Respondent, this case is distinguishable from those cases
relied upon by the Secretary, which deemed mandatory language merely directory and
without consequence. For example, in Bickhart, 845 A.2d at 795, the Court declined to
invalidate a write-in vote cast for a candidate who was named on the ballot proper. In
reaching that conclusion, the Court observed that “ballots containing mere minor
irregularities should only be stricken for compelling reasons,” noting that marking a ballot
is an imprecise process, the focus of which is upon the “unmistakable registration of the
voter’s will in substantial conformity to the statutory requirements.” Bickhart, 845 A.2d at
798-99 (internal quotation marks and citations omitted).
Similarly, in Appeal of Weiskerger, supra, this Court declined to invalidate a ballot
based upon the “minor irregularity” that it was completed in the wrong color of ink. The
statute at issue provided: “Any ballot that is marked in blue, black or blue-black ink . . .
shall be valid and counted.” 290 A.2d at 109 (citing 25 P.S. § 3063). Thus, the only
mandatory direction it provided was for the canvassers who receive the ballots, not the
electors who prepared them. In providing that ballots completed in the right color must
be counted, the Legislature neither stated nor implied that ballots completed in a different
color must not be counted. Neither statutory provision at issue in Bickhart nor Weiskerger
contained anything analogous to the directive at issue in this case, which involves secrecy
in voting protected expressly by Article VII, Section 4 of this Court’s state charter.
As posited by Respondent, most analogous to the instant case is our decision in
Appeal of Pierce. There, we held that the Election Code’s “in-person” ballot delivery
requirement, see 25 P.S. § 3146.6, was mandatory, and that votes delivered by third
persons must not be counted. The provision in question unambiguously provided that

[J-96-2020] - 50

A.50

“the elector shall send [the absentee ballot] by mail, postage [prepaid], except where
franked, or deliver it in person to [said county] board of election.” Appeal of Pierce, 843
A.2d at 1231 (quoting 25 P.S. § 3146.6(a)). The parties seeking to ensure that votes
delivered by third parties would be counted cited Weiskerger and its flexibility with respect
to “minor irregularities.”
This Court, however, was unpersuaded and declined the invitation to interpret
“shall” as anything less than mandatory. Moreover, the Court rejected precisely the same
reasoning for interpreting “shall” as directory that Petitioner and the Secretary offer in this
case. As in the instant case, the provision of the Election Code at issue in Appeal of
Pierce did not expressly provide for voiding a ballot delivered by someone other than the
voter. Nevertheless, we held that to construe the in-person requirement “as merely
directory would render its limitation meaningless and, ultimately, absurd.” Id. at 1232.
The Court further distinguished Weiskerger and its safe harbor for “minor irregularities,”
noting that the in-person requirement served the salutary purpose of “limit[ing] the number
of third persons who unnecessarily come in contact with the ballot[,] . . . provid[ing] some
safeguard that the ballot was filled out by the actual voter, . . . and that once the ballot
has been marked by the actual voter in secret, no other person has the opportunity to
tamper with it.” Id. The provision thus served the spirit of the Code, “which requires that
a voter cast his ballot alone, and that it remain secret and inviolate.” Id.
Petitioner and the Secretary attempt to distinguish Appeal of Pierce by
emphasizing that there was no statutory provision in that case that was inconsistent with
the judicially inferred remedy, such as the provisional ballot secrecy envelope provision
in this case.

They assert that here, by contrast, the Legislature has directed the

[J-96-2020] - 51

A.51

disqualification of provisional ballots not enclosed in the secrecy envelope, and of mail-in
ballots with certain markings on the secrecy envelope, rendering its silence with regard
to omitted secrecy envelopes for mail-in ballots all the more conspicuous.
The clear thrust of Appeal of Pierce, however, is that, even absent an express
sanction, where legislative intent is clear and supported by a weighty interest like fraud
prevention, it would be unreasonable to render such a concrete provision ineffective for
want of deterrent or enforcement mechanism. What we learn from that decision is that
violations of the mandatory statutory provisions that pertain to integral aspects of the
election process should not be invalidated sub silentio for want of a detailed enumeration
of consequences.
We must in all instances assume that the General Assembly does not intend a
statute to be interpreted in a way that leads to an absurd or unreasonable result. See 1
Pa.C.S. § 1922(1) (“In ascertaining the intention of the General Assembly in the
enactment of a statute the following presumptions . . . may be used: (1) That the General
Assembly does not intend a result that is absurd, impossible of execution or
unreasonable.”).

The result proffered by Petitioner and the Secretary is no more

reasonable than that which the Court in Appeal of Pierce found untenable. The Court in
Appeal of Pierce viewed a textual mandate pertaining to fraud prevention and ballot
secrecy as signaling the Legislature’s intent that its violation would require voiding the
ballot, notwithstanding no statutory provision to that effect. To avoid an absurd result, it
inferred that intent from nothing more than the provision itself.
We reach the same result here. It is clear that the Legislature believed that an
orderly canvass of mail-in ballots required the completion of two discrete steps before

[J-96-2020] - 52

A.52

critical identifying information on the ballot could be revealed. The omission of a secrecy
envelope defeats this intention. Moreover, in providing for the disqualification of mail-in
ballots that arrive in secrecy envelopes that bear markings identifying the elector, the
elector’s party affiliation, or the elector’s vote, all categories of information that appear on
the ballot itself, the Legislature signaled beyond cavil that ballot confidentiality up to a
certain point in the process is so essential as to require disqualification. Thus, we find
that our holding in Appeal of Pierce leads to the inescapable conclusion that a mail-in
ballot that is not enclosed in the statutorily-mandated secrecy envelope must be
disqualified.
Accordingly, we hold that the secrecy provision language in Section 3150.16(a) is
mandatory and the mail-in elector’s failure to comply with such requisite by enclosing the
ballot in the secrecy envelope renders the ballot invalid.
E. COUNT V OF THE PETITION FOR REVIEW
In Count V of its petition, Petitioner seeks a declaration specifying that the poll
watcher residency requirement, found in Section 2687(b) of the Election Code, 25 P.S.
§2687(b), does not violate state or federal constitutional rights.32 Petition at 55, ¶ 207.
The Secretary concurs with Petitioner in this regard.
The Election Code permits candidates and political parties to appoint “poll
watchers” to monitor the integrity of the voting process.33 “Each watcher so appointed

Specifically, Petitioner maintains that the poll watcher residency requirement does not
violate the United States Constitution’s First Amendment, the Fourteenth Amendment,
the Equal Protection Clause, or the Equal Protection and Free and Equal Elections
Clauses of the Pennsylvania Constitution.
32

33

Section 2687(a) provides:

[J-96-2020] - 53

A.53

must be a qualified registered elector of the county in which the election district for which
the watcher was appointed is located.” 25 P.S. § 2687(b). This provision, in full, specifies:
Each watcher so appointed must be a qualified registered elector of
the county in which the election district for which the watcher was appointed
is located. Each watcher so appointed shall be authorized to serve in the
election district for which the watcher was appointed and, when the watcher
is not serving in the election district for which the watcher was appointed, in
any other election district in the county in which the watcher is a qualified
registered elector: Provided, That only one watcher for each candidate at
primaries, or for each party or political body at general, municipal or special
elections, shall be present in the polling place at any one time from the time
that the election officers meet prior to the opening of the polls under section
1208 until the time that the counting of votes is complete and the district
register and voting check list is locked and sealed, and all watchers in the
room shall remain outside the enclosed space. It shall not be a requirement
that a watcher be a resident of the election district for which the watcher is
appointed. After the close of the polls and while the ballots are being
counted or voting machine canvassed, all the watchers shall be permitted
to be in the polling place outside the enclosed space. Each watcher shall
be provided with a certificate from the county board of elections, stating his
name and the name of the candidate, party or political body he represents.
Watchers shall be required to show their certificates when requested to do
so. Watchers allowed in the polling place under the provisions of this act,
shall be permitted to keep a list of voters and shall be entitled to challenge
any person making application to vote and to require proof of his
qualifications, as provided by this act. During those intervals when voters
are not present in the polling place either voting or waiting to vote, the judge
of elections shall permit watchers, upon request, to inspect the voting check
list and either of the two numbered lists of voters maintained by the county
board: Provided, That the watcher shall not mark upon or alter these official

Each candidate for nomination or election at any election shall be entitled
to appoint two watchers for each election district in which such candidate is
voted for. Each political party and each political body which had nominated
candidates in accordance with the provisions of this act, shall be entitled to
appoint three watchers at any general, municipal or special election for each
election district in which the candidates of such party or political body are to
be voted for. Such watchers shall serve without expense to the county.
25 P.S. § 2687(a).
[J-96-2020] - 54

A.54

election records. The judge of elections shall supervise or delegate the
inspection of any requested documents.
25 P.S. § 2687(b) (footnote omitted).
Petitioner observes that the General Assembly enacted the current poll watcher
residency requirement in 2004 and that no changes were made to this requirement in Act
77. Petitioner asserts that this provision does not suffer from any constitutional infirmities
and notes that the provision has been upheld as constitutional by the federal District Court
for the Eastern District of Pennsylvania in Republican Party of Pennsylvania v. Cortés,
218 F. Supp. 3d 396 (E.D. Pa. 2016), discussed further below.
The Secretary likewise maintains that the poll watcher residency requirement is
constitutional. The Secretary notes that the United States Supreme Court in Anderson v.
Calabrezza, 460 U.S. 780 (1983), recognized the importance of States in regulating
elections. There, the Court stated,
We have recognized that, ‘as a practical matter, there must be a substantial
regulation of elections if they are to be fair and honest and if some sort of
order, rather than chaos, is to accompany the democratic processes.’
Id. at 788 (citing Storer v. Brown, 415 U.S. 724, 730, (1974)). In this regard, the Secretary
observes that the Election Code provides a comprehensive scheme of regulations for
voting and elections in the Commonwealth.

The Secretary maintains that these

regulatory interests are generally considered sufficient to justify reasonable,
nondiscriminatory restrictions on elections. Id.; see also Timmons v. Twin Cities Area
New Party, 520 U.S. 351, 358 (1997) (specifying that “[s]tates may, and inevitably must,
enact reasonable regulations of parties, elections, and ballots to reduce election- and
campaign-related disorder”).
Regarding the provisions in the Election Code requiring that poll watchers be
qualified registered electors from the county in which they serve, like Petitioner, the

[J-96-2020] - 55

A.55

Secretary observes that although this Court has not previously addressed the question of
whether this requirement is constitutional, the federal District Court for the Eastern District
of Pennsylvania has done so and rejected a constitutional challenge to the poll watcher
residency requirement in Cortés, supra.
Specifically, there, the District Court considered a constitutional challenge to
Section 2687(b) of the Election Code by the respondent here. Respondent claimed that
the poll watcher residency requirement found at Section 2687(b), requiring poll watchers
to reside in the county in which they serve, is violative of its Fourteenth Amendment rights
to due process and equal protection and their rights to free speech and association under
the First Amendment.
The District Court rejected these claims, noting first, that the regulation does not
violate due process or equal protection. The court observed that serving as a poll watcher
does not implicate a fundamental constitutional right, like the right to vote, but rather, is a
right conferred by statute. Id. at 408. Additionally, the court found that because the state’s
regulation of the qualifications of who may serve as a poll watcher does not burden one’s
voting rights or any other constitutional right, the state imposing the regulation need only
cite a rational basis for the regulation to be upheld. Id. (citing Donatelli v. Mitchell, 2 F.3d
508, 514 & n.10 (3d Circ. 1993) (declining to apply intermediate scrutiny standards
because the plaintiffs’ fundamental rights were not burdened by state law)); and Voting
for Am., Inc. v. Andrade, 488 Fed.Appx. 890, 899 (5th Cir. 2012) (applying rational basis
review as opposed to an intermediate balancing test because state election law did not
implicate or burden specific constitutional rights). In this regard, the court concluded as
follows:
There is a rational basis for Section 2678(b)’s requirement that poll
watchers be qualified electors in the county in which they work. The
Secretary notes that in 1937, the General Assembly enacted a countybased scheme to manage elections within the state, and consistent with that

[J-96-2020] - 56

A.56

scheme the legislature endeavored to allow county election officials to
oversee a manageable portion of the state in all aspects of the process,
including in credentialing poll watchers. In short, Pennsylvania opted to
design a county-by-county system of elections; in doing so it ensured as
much coherency in this patchwork system as possible. To that end it
ensured that participants in the election--voters and watchers alike--were
qualified electors in the relevant county. The legislature’s decision to allow
county election officials to credential only poll watchers from their own
county is rationally related to the state’s interest in maintaining its countyrun election system; each county election official is tasked with managing
credentials for a discrete part of the state’s population. As the Secretary’s
counsel noted at the hearing, the legislature chose to ‘draw the lines’ at the
county level, something entirely rational in fashioning a scheme for a state
as large as Pennsylvania.
Cortés, 218 F.Supp. 3d at 409.
The District Court, likewise, rejected Respondent’s claims that Section 2687
violates the First Amendment. The court first noted that courts have found that “poll
watching is not incidental to” the right of free association and has “no distinct First
Amendment protection.” Id. at 414 (citing Cotz v. Mastroeni, 476 F.Supp.2d 332, 364
(S.D. N.Y. 2007); and Dailey v. Hands, No. 14-00423, 2015 WL 1293188, at *5 (S.D. Ala.
Mar. 23, 2015) (“[P]oll watching is not a fundamental right protected by the First
Amendment.”)). Moreover, the court found that poll watchers do not engage in core
political speech while completing their duties. Id. at 415. Rather, the court observed that
“when a poll watcher reports incidents of violations, he is performing a public function
delegated by the state.” Id. (citing Flagg Bros., Inc. v. Brooks, 436 U.S. 149, 158 (1978)
(stating that “[w]hile the Constitution protects private rights of association and advocacy
with regard to the election of public officials, [the Supreme Court] cases make it clear that
the conduct of the elections themselves is an [e]xclusively public function.”)). Thus, the
District Court found that the Commonwealth’s county poll watcher residency requirement
did not implicate poll watchers’ private rights of association or advocacy and, therefore,
did not violate the First Amendment.
[J-96-2020] - 57

A.57

Respondent again maintains that the poll watcher residency requirement set forth
in the Election Code is unconstitutional.34 First, Respondent maintains that Cortés is
distinguishable from this matter because of the procedural posture and the timing of that
case. Specifically, Respondent emphasizes the fact that in Cortés it sought a preliminary
injunction eighteen days before the general election and that on this basis the court found
the request for relief to be untimely. Thus, it contends that the court’s further discussion
of the constitutionality of the poll watcher residency requirement was dicta.
Additionally, Respondent argues that the court in Cortés, like the Secretary here,
gave short shrift to the Commonwealth’s obligation to safeguard the electorate from voter
fraud, noting that “every voter in a federal . . . election, whether he votes for a candidate
with little chance of winning or for one with little chance of losing, has a right under the
Constitution to have his vote fairly counted, without its being distorted by fraudulently cast
votes.” Respondent’s Brief at 45 (citing Anderson v. United States, 417 U.S. 211, 227
(1974)). Respondent maintains that due to the distribution of voters throughout the
Commonwealth, the county residency requirement makes it difficult for both political
parties to identify poll watchers in all precincts. Thus, it asserts that, in the absence of
poll watchers, “fraud can flourish.”

Id. at 46.

Respondent further argues that with

Pennsylvania moving to an entirely new election regime under Act 77, with alleged
increased opportunities for ballot fraud and tampering, the need for poll watchers is
heightened.
Turning to the merits, initially, regarding Respondent’s assertion that the District
Court’s discussion of the constitutionality of the poll watcher residency requirement
constitutes dicta because the court found the claims there to be untimely, we note that

The Caucus does not advocate in favor of finding the poll watcher residency
requirement unconstitutional.
34

[J-96-2020] - 58

A.58

although that court pointed out that the emergent nature of Respondent’s claims
amounted to a “judicial fire drill” based on their late filing, the court opined further that the
relief sought “would be inappropriate for a number of reasons, not the least of which is
that at this late hour courts should not disrupt an impending election ‘absent a powerful
reason for doing so.’” Cortés, 218 F.Supp.3d. at 405 (citation omitted). The court then
went on to analyze the merits of the constitutional claims asserted and denied relief.
Accordingly, it appears the court made its decision on multiple bases, including the merits
as well as the timing of the claims. Moreover, regardless of the status of the District
Court’s determination of the constitutional issues presented there, we find its analysis
persuasive and agree with its reasoning in upholding the constitutionality of the poll
watcher residency requirement.
The “times, places and manner” of conducting elections generally falls to the
states. U.S. CONST. art. I, § 4 (providing that “the Times, Places and Manner of holding
Elections…shall be prescribed in each State by the Legislature thereof”). Pennsylvania
has enacted a comprehensive code of election laws pursuant to its authority to regulate
its elections.

The General Assembly, in enacting its comprehensive scheme, has

required that any person serving as a poll watcher for a particular candidate or party be
a resident of the county in which she serves in her position. 25 P.S. § 2687(b).
This provision is a legislative enactment which enjoys the presumption that the
General Assembly did not intend to violate constitutional norms, “in part because there
exists a judicial presumption that our sister branches take seriously their constitutional
oaths.” Stilp v. Commonwealth, 905 A.2d 918, 938–39 (Pa. 2006); see also 1 Pa.C.S.
§1922(3).

Accordingly, a statute is presumed to be valid, and will be declared

unconstitutional only if it is shown to be “clearly, palpably, and plainly [violative of] the

[J-96-2020] - 59

A.59

Constitution.” West Mifflin Area School District v. Zahorchak, 4 A.3d 1042, 1048 (Pa.
2010).
In analyzing whether a state election law violates the constitution, courts must first
examine the extent to which a challenged regulation burdens one’s constitutional rights.
Burdick v. Takushi, 504 U.S. 428, 434 (1992). Upon determining the extent to which
rights are burdened, courts can then apply the appropriate level of scrutiny needed to
examine the propriety of the regulation. See id. (indicating that “the rigorousness of our
inquiry into the propriety of a state election law depends upon the extent to which a
challenged regulation burdens First and Fourteenth Amendment rights”).
Where a state election regulation imposes a “severe” burden on a plaintiff’s right
to vote, strict scrutiny applies and requires that the regulation is “narrowly drawn to
advance a state interest of compelling importance.” Id. When a state election law
imposes only “reasonable, nondiscriminatory restrictions,” upon the constitutional rights
of voters, an intermediate level of scrutiny applies, and “the State’s important regulatory
interests are generally sufficient to justify” the restrictions. See Id. (upholding Hawaii’s
ban on write-in voting in the primary where doing so places a minimal burden on one’s
voting right and supports the state’s interest in supporting its ballot access scheme).
Where, however, the law does not regulate a suspect classification (race, alienage, or
national origin) or burden a fundamental constitutional right, such as the right to vote, the
state need only provide a rational basis for its imposition. See Donatelli, 2 F.3d at 510 &
515.
In examining the constitutionality of the poll watcher residency provision at issue
here, we conclude, as the District Court in Cortés concluded, that it imposes no burden
on one’s constitutional right to vote and, accordingly, requires only a showing that a
rational basis exists to be upheld. In this regard, as the District Court aptly noted, there

[J-96-2020] - 60

A.60

is no individual constitutional right to serve as a poll watcher; rather, the right to do so is
conferred by statute. Cortés, 218 F.Supp.3d at 408. Additionally, courts have indicated
that “poll watching is not incidental to” the right of free association and, thus, “has no
distinct First Amendment protection.” Cotz, 476 F.Supp.2d at 364. Finally, poll watching
does not implicate core political speech. Cortés, 218 F.Supp.3d at 415.
As the poll watcher county residency requirement does not burden one’s
constitutional voting rights, the regulation need only be shown to satisfy a rational basis
for its imposition.

Again, as the District Court aptly recounted, from its inception,

Pennsylvania has envisioned a county-based scheme for managing elections within the
Commonwealth. Consistent therewith, the Legislature has endeavored to allow county
election officials to oversee and manage their portion of the state in all aspects of the
election process, including credentialing poll watchers.

Given that Pennsylvania’s

General Assembly chose a county-based scheme for conducting elections, it is
reasonable that the Legislature would require poll watchers, who serve within the various
counties of the state, to be residents of the counties in which they serve. Thus, there is
a clear rational basis for the county poll watcher residency requirement, and we
determine, therefore, that this requirement should be upheld.
Respondent does not claim that poll watching involves a fundamental
constitutional right or that a level of scrutiny other than rational basis needs to be shown
regarding the regulation of poll watcher qualifications. Instead, Respondent claims that
poll watchers are vital to protect against voter fraud and that because of the distribution
of voters throughout Pennsylvania, the residency requirement makes it difficult to identify
poll watchers in all precincts.

While Respondent asserts the greater need for poll

watchers because of heightened election fraud involving mail-in voting, these claims are

[J-96-2020] - 61

A.61

unsubstantiated and are specifically belied by the Act 35 report issued by the Secretary
on August 1, 2020, concerning mail in voting in the Primary Election, finding:
[D]ata provided by the counties reinforces numerous independent studies
that conclude that mail ballot fraud is exceedingly rare, and it demonstrates
that the errors that occurred [in the Primary Election] accounted for a very
small fraction of the nearly 1.5 million absentee and mail-in ballots
requested and cast by voters.
Pennsylvania 2020 Primary Election Act 35 of 2020 Report at 39; Appendix to Petitioner’s
Brief, Exhibit F. Moreover, Respondent’s speculative claim that it is “difficult” for both
parties to fill poll watcher positions in every precinct, even if true, is insufficient to
transform the Commonwealth’s uniform and reasonable regulation requiring that poll
watchers be residents of the counties they serve into a non-rational policy choice.
Based on the foregoing, we conclude that the poll watcher residency requirement
does not violate the state or federal constitutions.35 Accordingly, we grant the relief
sought by Petitioner in their petition for review and declare the poll watcher residency
requirement set forth in Section 2687(b) of the Election Code, 25 P.S. § 2687(b), to be
constitutional.
IV. CONCLUSION
Based on our disposition of all of the claims set forth above, we grant relief on the
claims set forth in Counts I, II, and V of the Democratic Party’s petition for review as
follows and hold that: (Count I) the Election Code permits county boards of election to
collect hand-delivered mail-in ballots at locations other than their office addresses
including drop-boxes as indicated herein, see supra. at 20 n. 15; (Count II) a three-day
extension of the absentee and mail-in ballot received-by deadline is adopted such that

Respondent has not asserted that the Pennsylvania Constitution offers greater
protection under the circumstances presented. Thus, for purposes of our review, we treat
them as co-extensive.
35

[J-96-2020] - 62

A.62

ballots mailed by voters via the United States Postal Service and postmarked by 8:00
p.m. on Election Day , November 3, 2020, shall be counted if they are otherwise valid and
received by the county boards of election on or before 5:00 p.m. on November 6, 2020;
ballots received within this period that lack a postmark or other proof of mailing, or for
which the postmark or other proof of mailing is illegible, will be presumed to have been
mailed by Election Day unless a preponderance of the evidence demonstrates that it was
mailed after Election Day; (Count V) the poll watcher residency requirement set forth in
Section 2687(b) of the Election Code, 25 P.S. § 2687(b), is constitutional. Also, for the
reasons set forth herein, we deny the relief sought in Count III and IV of the petition for
review.
Justices Todd, Dougherty, and Wecht join the opinion.
Chief Justice Saylor and Justice Mundy join Parts I, II, and III(C), (D) and (E) of
the opinion.
Justice Donohue joins Parts I, II, and III(A), III(C), III(D) and III(E) of the opinion.
Justice Wecht files a concurring opinion.
Chief Justice Saylor files a concurring and dissenting opinion in which Justice
Mundy joins.
Justice Donohue files a concurring and dissenting opinion in which Chief Justice
Saylor and Justice Mundy join Part II.

[J-96-2020] - 63

A.63

APPENDIX B

[J-96-2020] [MO: Baer, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
:
:
:
: SUBMITTED: September 8, 2020
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:

A.64

COLUMBIA COUNTY BOARD OF
ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD
OF ELECTIONS; PERRY COUNTY BOARD
OF ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020] [MO: Baer, J.] - 2

A.65

OF ELECTIONS; SOMERSET COUNTY
BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS
PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

CONCURRING OPINION
JUSTICE WECHT

DECIDED: September 17, 2020

I join the learned Majority’s Opinion in full. “No right is more precious in a free
country than that of having a voice in the election of those who make the laws under
which, as good citizens, we must live. Other rights, even the most basic, are illusory if
the right to vote is undermined.”1 As the Supreme Court of the United States has
explained, the right to vote comprises not just “the right of qualified voters within a state

1

Wesberry v. Sanders, 376 U.S. 1, 17 (1964).

[J-96-2020] [MO: Baer, J.] - 3

A.66

to cast their ballots,” but also the right “to have their ballots counted.” 2

In our

Commonwealth, the franchise is guaranteed by the Free and Equal Elections Clause of
the Pennsylvania Constitution, which commands: “Elections shall be free and equal; and
no power, civil or military, shall at any time interfere to prevent the free exercise of the
right of suffrage.”3

The history of that clause, which predates the United States

Constitution and has no federal counterpart, evinces the intent of its framers that it be
given “the broadest interpretation, one which governs all aspects of the electoral
process.”4
Expounding upon the contours of the guarantee of free and equal suffrage
contained within the Constitution of Kentucky, which was modeled on our own organic
charter, the Kentucky Supreme Court observed that, “when any substantial number of
legal voters are, from any cause, denied the right to vote, the election is not free and
equal, in the meaning of the Constitution.”5
[T]his constitutional provision admits of no evasions or exceptions. No
amount of good intention or good faith can be allowed to defeat its purpose
or its meaning. When the question arises, the single inquiry will be: Was
the election free and equal, in the sense that no substantial number of
persons entitled to vote and who offered to vote were denied the privilege? 6

United States v. Classic, 313 U.S. 299, 314, 315 (1941); accord United States v.
Mosley, 238 U.S. 383, 386 (1915).
2

3

PA. CONST. art. I, § V.

League of Women Voters of Pa. v. Pa., 178 A.3d 737, 809 (Pa. 2018); see Winston
v. Moore, 91 A. 520, 523 (Pa. 1914).
4

5

Wallbrecht v. Ingram, 175 S.W. 1022, 1026 (Ky. 1915).

6

Id. at 1027.

[J-96-2020] [MO: Baer, J.] - 4

A.67

Although the conditions that might infringe the franchise are too manifold to enumerate,
when we are satisfied that a violation of the right has occurred or is likely to occur, “our
Court possesses broad authority to craft meaningful remedies when required.”7
“Confidence in the integrity of our electoral processes is essential to the functioning
of our participatory democracy.”8 To that end, we recognized in League of Women Voters
that “[a] broad and robust interpretation” of the Free and Equal Elections Clause could
restore the public’s confidence in the redistricting process by “guard[ing] against the risk
of unfairly rendering votes nugatory.”9 The same easily could be said of an election
scheduled in the wake—or midst—of a natural disaster, civil unrest, or other emergency,
where systemic disruptions in basic government services like mail delivery—upon which
the machinery of our election system relies more than ever with the advent of broad mailin voting—can be demonstrated or reasonably anticipated.10

Indeed, the “adverse

consequences” occasioned by a dysfunctional electoral process that threatens to
disenfranchise a broad swath of the electorate are no less pernicious than those of
partisan gerrymandering. Left unabated, each threatens to “discourag[e] voters from

League of Women Voters, 178 A.3d at 822 (citing PA. CONST. art. V, §§ 1, 2, 10);
see Reynolds v. Sims, 377 U.S. 533, 566 (1964) (“[A] denial of constitutionally protected
rights demands judicial protection; our oath and our office require no less of us.”).
7

8

Purcell v. Gonzalez, 549 U.S. 1, 4 (2006) (per curiam).

9

League of Women Voters, 178 A.3d at 814.

See In re General Election-1985, 531 A.2d 836, 839 (Pa. Cmwlth. 1987) (“To
permit an election to be conducted where members of the electorate could be deprived
of their opportunity to participate because of circumstances beyond their control . . . would
be inconsistent with the purpose of the election laws.”).
10

[J-96-2020] [MO: Baer, J.] - 5

A.68

participating in the electoral process because they have come to believe” that their vote
will not count through no fault of their own.11
In determining whether present systemic disruptions in government services are
well-documented in this Commonwealth, we need look no further than the recent
Congressional testimony of Postmaster General Louis DeJoy.

Appearing before

committees of the United States House and Senate, DeJoy acknowledged that “[a]
substantial portion of [mail] delays are related to COVID.”12 Highlighting the acute effects
of the pandemic on mail delays within Pennsylvania, DeJoy explained:
As the coronavirus cases throughout the country have expanded it has had
an impact on our employee availability. And in the urban areas that are
hotspots—the averages don’t play out what the real picture is like in areas
like Philadelphia, where employee availability is significantly below normal
run rates.13
Lacking any materially contradictory evidence, we have no reason to doubt the accuracy
of DeJoy’s testimony on these points. While the Postal Service may be able to prioritize
election mail to mitigate these concerns, they cannot alter the laws of time and space.
The extraordinary circumstances under which this year’s quadrennial presidential
election must be contested manifestly justify an equitable remedy modifying the received-

League of Women Voters, 178 A.3d at 814; cf. Working Families Party v.
Commonwealth, 209 A.3d 270, 306-07 (Pa. 2019) (Wecht, J., concurring and dissenting)
(“The Free and Equal Elections Clause is compromised where the regulatory approach
adopted by the legislature has the well-documented effect of . . . depressing voter
enthusiasm and participation.”).
11

Examining the Finances and Operations of the United States Postal Service During
COVID-19 and Upcoming Elections: Hearing Before the S. Homeland Security Comm.,
116th Cong. (Aug. 21, 2020).
12

Protecting the Timely Delivery of Mail, Medicine, and Mail-in Ballots: Hearing
Before the H. Oversight & Gov’t Reform Comm., 116th Cong. (Aug. 24, 2020).
13

[J-96-2020] [MO: Baer, J.] - 6

A.69

by deadline for absentee and mail-in ballots to account for these exigencies and to ensure
that no unnecessary impediments to each citizen’s exercise of the franchise be interposed
that reasonably can be avoided. Having determined that the convergence of a once-ina-century pandemic and unprecedented operational delays in United States Postal
Service delivery capacity threatens to undermine the integrity of our general election, this
force majeure necessitates relief.
I endorse the Majority’s narrowly-tailored remedy, which extends the received-by
deadline by just three days to compensate for projected mail-delivery delays of similar
duration.

Extrapolating from the Department of State’s primary election data, that

timeframe should capture the vast majority of late-arriving ballots that were deposited with
the Postal Service on or in the few days before Election Day. That approach also will
minimize the number of voters denied the franchise simply for mailing their votes based
upon long-trusted, but presently unrealistic expectations about the speed of the post,
while minimizing any subsequent delay in the tallying of votes and avoiding any material
disruption to the sequence of events that follow in the weeks following a national election.
While I join the Majority’s resolution of Count III, I do so subject to the belief that it
is limited to the particular concerns litigated and the lack of any proposal regarding a
practicable manner of relieving the problem alleged. In my view, today’s ruling should be
understood to extend no farther than to ballot defects that are capable of objective
assessment pursuant to uniform standards14—a qualification that captures all of the
defects Petitioners seek the opportunity to cure in this case.

See PA. CONST. art. VII, § 6 (“All laws regulating the holding of elections by the
citizens . . . shall be uniform throughout the State.”); Kuznik v. Westmoreland Cty. Bd. of
14

[J-96-2020] [MO: Baer, J.] - 7

A.70

For example, the failure to “fill out, date and sign the declaration printed on” the
ballot return envelope, as required by 25 P.S. § 3150.16(a), is a deficiency that can be
readily observed. Absent some proof that the enforcement of such a uniform, neutrally
applicable election regulation will result in a constitutionally intolerable ratio of rejected
ballots, I detect no offense to the Free and Equal Elections Clause. Moreover, Petitioners
propose only an amorphous standard that would permit electors to cure “minor” defects
and omissions; they supply no judicially manageable criteria for distinguishing “minor”
defects from “major” ones that could be adopted on a statewide basis, nor do they
propose a process to facilitate the opportunity to cure that they seek that can be
implemented and fairly administered in every voting district in the Commonwealth in the
weeks between now and the general election. So long as the Secretary and the county
boards of elections provide electors with adequate instructions for completing the
declaration of the elector—including conspicuous warnings regarding the consequences
for failing strictly to adhere—pre-deprivation notice is unnecessary.
But I view these issues as distinct from circumstances in which a ballot’s validity
turns on subjective assessments, such as signature mismatches assessed by poll
workers with no training or expertise in matching signatures. The enforcement of such
requirements presents risks of inconsistency and arbitrariness that may implicate
constitutional guarantees not raised in this case, including due process and equal
protection principles. Signature comparison is a process fraught with the risk of error and

Comm’rs, 902 A.2d 476, 490 (Pa. 2006) (“We have held that ‘to be uniform in the
constitutional sense . . . a law [regulating the holding of elections] must treat all persons
in the same circumstances alike.’”) (quoting Kerns v. Kane, 69 A.2d 383, 393 (Pa. 1949)).

[J-96-2020] [MO: Baer, J.] - 8

A.71

inconsistent application, especially when conducted by lay people.15 While this case
offers no challenge to such inherently subjective bases for disqualifying ballots, I do not
view today’s Opinion as foreclosing the possibility of relief in a future case seeking the
opportunity to address circumstances in which a subjective, lay assessment of voter
requirements as to which reasonable minds might differ stands between the elector and
the tabulating machine.
We would not write on a blank slate in this regard. These concerns have been
recognized by numerous tribunals in recent years, and various courts have granted relief
on similar grounds, including three federal courts in the last few weeks alone.16 Those
Cf. United States v. Starzecpyzel, 880 F.Supp. 1027, 1046 (S.D.N.Y. 1995) (noting
the risk of “natural variations” in handwriting and citing factors such as “disease,
intoxication and the passage of time,” and citing a putative handwriting expert as
observing that “[s]ome people have a lot of individuality present in their writing and other
people do not”).
15

See, e.g., Ariz. Dem. Party v. Hobbs, CV-20-01143-PHX-DLR (D. Ariz. Sept. 10,
2020); Richardson v. Tex. Sec. of State, SA-19-cv-00963-OLG (W.D. Tex. Sept. 8, 2020);
Frederick v. Lawson, 1:19-cv-01959-SEB-MDJ, ___ F. Supp. 3d ___, 2020 WL 4882696
(S.D. Ind. Aug. 20, 2020); see also League of Un. Latin Am. Citizens of Iowa v. Pate, Polk
Cty. CVCV056403, 2018 WL 3946147, at *1 (Iowa Aug. 10, 2018) (enjoining use of
signature-matching provisions in Iowa’s Election Code); Martin v. Kemp, 341 F. Supp. 3d
1326 (N.D. Ga. 2018) (enjoining enforcement of Georgia statute permitting rejection of
absentee ballots and ballot applications due to alleged signature mismatch), emergency
motion for stay of injunction pending appeal denied, Georgia Muslim Voter Project v.
Kemp, 918 F.3d 1262 (11th Cir. 2019); Saucedo v. Gardner, 335 F. Supp. 3d 202, 222
(D. N.H. 2018) (holding that New Hampshire’s signature-match requirement for absentee
ballots was facially unconstitutional under the Fourteenth Amendment); Florida Dem.
Party v. Detzner, 4:16cv607-MW/CAS, 2016 WL 6090943, at *9 (N.D. Fla. Oct. 16, 2016)
(striking down Florida’s mail-in ballot signature match law as violative of the Fourteenth
Amendment); Zessar v. Helander, 05 C 1917, 2006 WL 642646, at *10 (N.D. Ill. 2006)
(finding that the Illinois Election Code provisions requiring signature comparisons on
absentee ballots violated voters’ due process rights); La Follette v. Padilla, CPF-17515931, 2018 WL 3953766, at *3 (Cal. Super. Ct. Mar. 5, 2018) (holding that California
Election Code ballot signature-mismatch provision facially violates due process);
cf. Susie Armitage, Handwriting Disputes Cause Headaches for Some Absentee Voters,
ProPublica
(Nov. 5, 2018),
www.propublica.org/article/handwriting-disputes-cause16

[J-96-2020] [MO: Baer, J.] - 9

A.72

courts have found that the administrative burden of a notice-and-cure remedy is
outweighed by the threat to the fundamental rights of voters whose ballots otherwise
would not be counted.
While one might hope that the General Assembly would revisit the issue and
consider furnishing such a procedure on its own initiative, this Court has the prerogative
to address this problem if it proves worthy upon closer examination. As a “state court
with the power to assure uniformity,” we have the authority, and indeed the obligation, to
direct the canvassing of absentee and mail-in ballots in a manner that satisfies “the
rudimentary requirements of equal treatment and fundamental fairness” when we find a
palpable failure to meet those constitutional thresholds.17 Regardless, Petitioners do not
bring a discrete challenge to the Commonwealth’s prescribed processes for examining
the validity of signatures on ballot envelopes, so resolution of that question must wait.18
Turning finally to Count IV, I agree wholeheartedly with the Majority’s analysis. I
write separately to underscore that this case illustrates most consequentially the potential
for mischief, albeit well-meaning, when we are called upon to question the “true” meaning
of the General Assembly’s contextually ambiguous use of the word “shall.” In my view,

headaches-for-some-absentee-voters (discussing legal challenges to signature-match
laws).
17

Bush v. Gore, 531 U.S. 98, 109 (2000) (per curiam).

During the pendency of this appeal, Secretary Boockvar issued a guidance
document that, in furtherance of “consistency across the 67 counties,” instructs election
officials that “[t]he Pennsylvania Election Code does not authorize the county board of
elections to set aside returned absentee or mail-in ballots based solely on signature
analysis by the county board of elections.” Guidance Concerning Examination of
Absentee and Mail-In Ballot Return Envelopes at 3 (Sept. 11, 2020) www.dos.pa.gov/
VotingElections/OtherServicesEvents/Documents/Examination%20of%20Absentee%20
and%20Mail-In%20Ballot%20Return%20Envelopes.pdf.
18

[J-96-2020] [MO: Baer, J.] - 10

A.73

there are times when this Court has done so gratuitously. But far more frequently, this
unfortunate circumstance is foisted upon us by the choices made by the General
Assembly during the often tortuous drafting process,
The difficulty inherent in that enterprise, and concomitantly the risk that we will
misconstrue legislative intent, is clear. In searching for methods to remove the guesswork
from such situations, Pennsylvania courts have labored mightily but in vain to fashion a
coherent organizing principle for determining when the legislature meant “you may” when
it said “you must.”
For example, the Superior Court once suggested that the distinction inheres in “the
effect of non-compliance . . . . A provision is mandatory when failure to follow it renders
the proceedings to which it relates illegal and void; it is directory when the failure to follow
it does not invalidate the proceedings.”19

But where the court considers the

consequences of a failure to perform a task stated in mandatory language, this distinction
is nonsensical: we cannot gauge the effect of non-compliance simply by asking what the
effect of non-compliance is. In Bell v. Powell, we proposed an equally confounding
alternative:
[Shall] may be construed to mean ‘may’ when no right or benefit to any one
depends on its imperative use, when no advantage is lost, when no right is
destroyed, when no benefit is sacrificed, either to the public or to any
individual, by giving it that construction, or when it is absolutely necessary
to prevent irreparable mischief, or to construe a direction so that it shall not
interfere with vested rights, or conflict with the proper exercise of power by
either of the fundamental branches of government . . . .20

Borough of Pleasant Hills v. Carroll, 125 A.2d 466, 469 (Pa. Super. 1956) (en
banc) (emphasis in original).
19

20

Commonwealth ex rel. Bell v. Powell, 94 A. 746, 748 (Pa. 1915) (cleaned up).
[J-96-2020] [MO: Baer, J.] - 11

A.74

This impenetrable passage suggests nothing to me so much as that we are free to do
whatever we want only when what we do does not matter.
To be sure, there may be value in legislating in both mandatory and directory
terms. But no benefit is served by, nor is there any excuse for, rendering the distinction
opaque with critical omissions, such as the failure to specify a specific consequence for
failing to adhere to a particular mandate—especially where, as in the case of naked
ballots, the legislature did so for closely related, if not constructively identical, correlative
statutory provisions.

The General Assembly must endeavor always to distinguish

between what it intends to be mandatory and what directory, in its words or by clear and
necessary inference. When it fails to do so, courts are left to bend unclear texts toward
whatever ends that they believe to be consonant with legislative intent, but with little or
no contemporaneous insight into whether they have done so successfully. When the
General Assembly does not choose its words carefully according to their intended effect,
it leaves courts with no choice but to sharpen what the drafters made dull.
For this Court’s part, if we are to maintain a principled approach to statutory
interpretation that comports with the mandate of our Statutory Construction Act, if we are
to maximize the likelihood that we interpret statutes faithfully to the drafters’ intended
effect, we must read mandatory language as it appears, and we must recognize that a
mandate without consequence is no mandate at all. If the result, at times, is that the
Court imposes a more doctrinaire result than the legislature intended, that body has the
tools at its disposal to ensure that the same mistake does not recur.

[J-96-2020] [MO: Baer, J.] - 12

A.75

APPENDIX C

[J-96-2020] [MO: Baer, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
:
:
:
: SUBMITTED: September 8, 2020
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:
COLUMBIA COUNTY BOARD OF
:

A.76

ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD
OF ELECTIONS; PERRY COUNTY BOARD
OF ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD
OF ELECTIONS; SOMERSET COUNTY

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020] [MO: Baer, J.] - 2

A.77

BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

CONCURRING AND DISSENTING OPINION
JUSTICE DONOHUE

DECIDED: September 17, 2020
I.

I join the Majority’s opinion as to Parts I, II, and III(A), III(C), III(D) and III(E).
II.
With respect to Part III(B), I agree that Petitioners are entitled to relief, but I
distance myself from the Majority’s analysis to reach this conclusion as well as the specific
relief granted. Petitioners base their request for relief on the infringement of the rights
afforded by Article 1, Section 5 of the Pennsylvania Constitution, our Free and Equal
Elections Clause.1 In my mind, the issue must be framed as an as-applied challenge,

1

Article I, Section 5 of the Pennsylvania Constitution provides as follows:

[J-96-2020] [MO: Baer, J.] - 3

A.78

during the duration of the COVID-19 public health crisis and current USPS service
standards, to the constitutionality of Sections 3150.12a(a) and 3150.16(c) of Act 77, which
respectively set the last date on which voters may request mail-in ballots and the deadline
for when ballots must be received by county boards of elections. With deference to my
learned colleagues, I believe that this issue should have been decided in a case in this
Court’s original jurisdiction under Act 77, Michael Crossey et al, v. Kathy Bookckvar, et
al., No. 108 MM 2020, where the claims likewise were based on the Free and Equal
Elections clause and in which this Court ordered the creation of a complete evidentiary
record to determine whether the petitioners there had met their high burden to prove the
existence of a constitutional injury entitling them to relief.
Despite invoking an as-applied constitutional challenge in the present case,
Petitioners and the Secretary (as in Crossey) seek equitable relief in the form of an order
permitting non-compliance with the received-by provision in Act 77 (Section 3150.16(c))
during the COVID-19 pandemic. I am not as comfortable as the Majority with the ability
of this Court to exercise equitable powers in election matters.2

Because they are

Elections shall be free and equal; and no power, civil or
military, shall at any time interfere to prevent the free exercise
of the right of suffrage.
Pa. Const., art. 1, § 5.
Section 3046 of the Election Code provides courts of common pleas with authority, with
some latitude, to make rulings on Election Day to secure compliance with the election
laws. 25 P.S. § 6046. Specifically, a judge or judges from each county will remain in
session on Election Day to “act as a committing magistrate for any violation of the election
laws; shall settle summarily controversies that may arise with respect to the conduct of
the election; shall issue process, if necessary, to enforce and secure compliance with the
election laws; and shall decide such other matters pertaining to the election as may be
necessary to carry out the intent of this act.” Id. The Commonwealth Court relied on
Section 3046 in deciding In re General Election-1985, 531 A.2d 836 (Pa. Commw. 1987)
2

[J-96-2020] [MO: Baer, J.] - 4

A.79

inherently political, elections are appropriately regulated by the political branch. In re
Guzzardi, 99 A.3d 381, 385 (Pa. 2014). As such, out of respect for legislatures and for
the sake of regularity and orderliness in the election process, the supreme courts of our
sister states have routinely held that courts cannot exercise equitable powers to mitigate
harsh results in derogation of legislative requirements for strict compliance with electionrelated deadlines. Butts v. Bysiewicz, 5 A.3d 932, 947 (Conn. 2010) (“Equity only applies
in the absence of a specific statutory mandate.”); see also Martin v. Secretary of State,
755 N.W.2d 153, 154 (Mich. 2008); Smith v. Kiffmeyer, 721 N.W.2d 912, 914–15 (Minn.
2006); Andrews v. Secretary of State, 200 A.2d 650, 651 (Md. 1964). Following the leads
of these courts, in 2014, this Court denied equitable relief to a litigant in an election case,
holding as follows:
[T]he judiciary should act with restraint, in the election arena,
subordinate to express statutory directives. Subject to
constitutional limitations, the Pennsylvania General Assembly
may require such practices and procedures as it may deem
necessary to the orderly, fair, and efficient administration of
public elections in Pennsylvania.
At least where the
Legislature has attached specific consequences to particular
actions or omissions, Pennsylvania courts may not mitigate
the legislatively prescribed outcome through recourse to
equity.
Guzzardi, 99 A.3d at 385. The Court recently reaffirmed our decision in Guzzardi.
Reuther v. Delaware Cty. Bureau of Elections, 205 A.3d 302, 308-09 (Pa. 2019).

(in light of a flood occurring on election day, the court of common pleas had the authority
to suspend voting in certain districts until the emergency was over), appeal denied, 544
A.2d 963 (Pa. 1988).
The Majority relies on In re General Election-1985 to support our broad equitable powers
to act in this case despite the limitations in Section 3046.
[J-96-2020] [MO: Baer, J.] - 5

A.80

Without the availability of equitable relief, it is my view that Petitioners are entitled
to relief only in the context of an as-applied constitutional challenge.

Specifically,

Petitioners must prove that in light of the existing circumstances, the short seven-day
timeframe established by Sections 3150.12a(a) and 3150.16(c) of Act 77 provides
insufficient time for a voter to request a mail-in ballot (by October 27, 2020) and return it
to a county board of elections by the statutorily set received-by date (8:00 p.m. on Election
Day, November 3, 2020), so that the vote is counted. Such a constitutional challenge
requires a plain showing of injury.

“There is a presumption that lawfully enacted

legislation is constitutional. Should the constitutionality of legislation be challenged, the
challenger must meet the burden of rebutting the presumption of constitutionality by a
clear, palpable and plain demonstration that the statute violates a constitutional
provision.” Yocum v. Commw. of Pennsylvania Gaming Control Bd., 161 A.3d 228, 238
(Pa. 2017).
In Crossey, the petitioners produced sufficient evidence to meet this high “clear,
palpable and plain” burden of proof. Given the deadlines set for the request of and
subsequent return of ballots, considered in light of the pandemic and current lagging
USPS service standards (which are highly unlikely to improve significantly before Election
Day), the evidence in Crossey established that there is a strong likelihood that voters who
wait until the last day to apply for a mail-in or absentee ballot will be disenfranchised, as
their mail-in ballots will not be delivered by Election Day and thus will not be counted.
Thus, the short seven-day window set forth in Sections 3150.12a(a) and 3150.16(c) of
Act 77 constitutes an interference with the free exercise of the right to vote as guaranteed
by our Free and Equal Elections Clause. The evidentiary linchpin for establishing the

[J-96-2020] [MO: Baer, J.] - 6

A.81

unconstitutionality of the seven-day time frame was correspondence from Thomas J.
Marshall, General Counsel and Executive Vice President for the USPS, to Secretary
Boockvar dated July 29, 2020 advising that the current service standards for delivery of
First Class Mail is two to five days, and cautioning that Pennsylvania’s application and
return deadlines for mail-in ballots are such that despite prompt actions by voters, the
ballots may “not be returned in time to be counted.” The letter was accepted into evidence
in Crossey and was further supported by the testimony of the Deputy Postmaster at the
time the correspondence was crafted.
The existence of the constitutional injury suffered by virtue of adherence to the
statutory deadlines for request and return of ballots is illustrated in the following chart,
which incorporates the fact of receipt by the board of elections of an application on the
statutory deadline of October 27, 2020.

It also assumes that the application is

immediately processed and a ballot mailed to the voter within forty-eight hours of receipt
of the application.3 I further take into account that mail is processed by USPS but not
delivered on Sundays. All computations are based on the use of First-Class Mail:
DATE
BALLOT
MAILED
BY
BOARD

DELIVERY
TIME (in
days)

Thursday,
10/29/2020

2

DATE
BALLOT IS
RECEIVED
BY VOTER

DATE
BALLOT IS
MAILED
BACK BY
VOTER
Saturday,
10/31/2020

DELIVERY
TIME (in
days)

DATE BALLOT IS
RECEIVED BY
BOARD

BALLOT
RECEIVED
IN TIME TO
BE
COUNTED?

2

Monday, 11/2/2020

YES

3

Tuesday, 11/3/2020

YES

In this regard, we note that 25 P.S. § 3150.15 provides that county boards of elections
must deliver the ballots to the voters within forty-eight hours after approval of the
application. See 25 P.S. § 3150.15 (“As additional applications are received and
approved, the board shall deliver or mail official mail-in ballots to the additional electors
within 48 hours.”).
3

[J-96-2020] [MO: Baer, J.] - 7

A.82

Saturday,
10/31/2020

Saturday,
10/31/2020

Monday,
11/2/2020

Monday,
11/2/2020

3-4

Monday,
11/2/2020

Monday,
11/2/2020

5

Tuesday,
11/3/2020

Monday,
11/2/2020

Tuesday,
11/3/2020
Wednesday,
11/4/2020

4

Wednesday,
11/4/2020

NO

5

Thursday, 11/5/2020

NO

2

Wednesday,
11/4/2020

NO

3

Thursday, 11/5/2020

NO

4

Friday, 11/6/2020

NO

5

Saturday, 11/7/2020

NO

2

Wednesday,
11/4/2020

NO

3

Thursday, 11/5/2020

NO

4

Friday, 11/6/2020

NO

5

Saturday 11/7/2020

NO

2-5

(After Election Day)

NO

2-5

(After Election Day)

NO

2-5

(After Election Day)

NO

The only way the current statutory framework works is if the ballot is delivered by USPS
in two days, the voter immediately returns the ballot, and it is received by the board of
elections within three days. All other voters who comply with the statutory framework are
disenfranchised, even though they complied with the statute.
The role of the judiciary when a meritorious constitutional challenge is brought
“includes the obligation to vindicate” the constitutional rights at issue, and in doing so
courts have wide latitude to craft an appropriate remedy.”

Robinson Twp. v.

Commonwealth, 83 A.3d 901, 953 (Pa. 2013); see also League of Women Voters of Pa.
v. Commonwealth, 178 A.3d 737, 793 (Pa. 2018) (“The Court possesses broad authority
to craft meaningful remedies [for constitutional violations] when required.”). Where, as

[J-96-2020] [MO: Baer, J.] - 8

A.83

here, “a legislatively unforeseen constitutional problem requires modification of a statutory
provision as applied,” the United States Supreme Court has admonished courts to look
to legislative intent when devising a remedy. See United States v. Booker, 543 U.S. 220,
246-47 (2005) (after ruling that federal sentencing statute that made guidelines
mandatory was unconstitutional, the Court made an effort to determine what “‘Congress
would have intended’ in light of the Court’s constitutional holding.” Id. at 246-47.
In Crossey (and in the present case), Petitioners recommend that the “received
by” date be moved from Election Day to seven days after Election Day, so long as the
mailing is postmarked by Election Day. In Crossey (and here), Secretary Boockvar
believes that moving the received-by day forward by three days is sufficient, and that
Petitioners’ longer time period would in fact interfere with other important functions that
must take place after Election Day. In crafting a remedy for an as-applied constitutional
violation, a court’s duty is to effectuate the intent of the General Assembly to the extent
possible and to otherwise not disrupt the statutory scheme. In light of these principles, I
do not believe that either of the parties’ recommended remedies provide the appropriate
solution.
There is no reasonable reading of the statute that would lead to the conclusion that
the Tuesday before Election Day was of any institutional importance. Instead, the clear
legislative intent was that all ballots were to be cast by 8:00 p.m. on Election Day, the
termination of the balloting process. It cannot be viewed as a coincidence that the closing
of the polls terminating in-person voting and the receipt of mail-in ballots were designated
by the statute to be the same. The last date on which applications for ballots would be
accepted was tied to an assumption that a timely vote could be cast before the only

[J-96-2020] [MO: Baer, J.] - 9

A.84

meaningful milestone, Election Day. As a result, the remedy to best effectuate the
legislative intent before the intervening circumstances is to move back, i.e., make earlier,
the final date on which applications for mail-in ballots may be submitted to the county
boards of elections. I would accept Secretary Boockvar’s opinion that three additional
days will substantially correct the problem. However, moving back by three days the
deadline for the receipt of applications by the boards of elections would result in that
deadline falling on Saturday. Instead, to reflect normal business days, the deadline for
receipt of the application by the boards of election should be moved to Friday, October
23, 2020. The received-by date for the ballot by the boards of elections, Election Day by
8:00 p.m., should remain unchanged.
For comparison, the following chart illustrates the new deadlines interfaced with
current USPS delivery standards:
DATE
BALLOT
MAILED BY
BOARD

DELIVERY
TIME (in
days)

DATE
BALLOT
RECEIVED
BY VOTER

DATE
BALLOT
MAILED BY
VOTER

Wednesday,
10/28/2020

Wednesday,
10/28/2020

2

DELIVERY
TIME (in
days)

DATE BALLOT
RECEIVED BY
BOARD

2
3
4
5

Friday, 10/30/2020
Saturday, 10/31/2020
Monday 11/2/2020
Monday 11/2/2020

BALLOT
RECEIVED IN
TIME TO BE
COUNTED?
YES
YES
YES
YES

2

Saturday, 10/31/2020

YES

3

Monday, 11/2/2020

YES

4

Monday, 11/2/2020

YES

5

Tuesday, 11/3/2020

YES

2

Monday, 11/2/2020

YES

Wednesday,
10/28/2020
Monday,
10/26/2020

Thursday,
10/29/2020
Thursday,
10/29/2020
3
Thursday,
10/29/2020

Friday,
10/30/2020

[J-96-2020] [MO: Baer, J.] - 10

A.85

3

Monday, 11/2/2020

YES

4

Tuesday, 11/3/2020

YES

5

Wednesday, 11/4/2020

NO

2

Monday, 11/2/2020

YES

3

Tuesday, 11/3/2020

YES

4

Wednesday, 11/4/2020

NO

5

Thursday, 11/5/2020

NO

2-5

(After Election Day)

NO

Friday,
10/30/2020
4
Friday,
10/30/2020
Saturday,
10/31/2020
Saturday,
10/31/2020
5
Saturday,
10/31/2020

Monday,
11/2/2020

As with the previous illustration, I assume that county boards of elections will process and
send out the ballots within forty-eight hours of receipt. Whether this is possible, likely or
impossible is apparently immaterial, since Secretary Boockvar, with knowledge of the
capacities of the county boards of elections, recommended a three-day extension, so I
assume that it accounted for this factor.
As required when remedying an as-applied constitutional defect, this remedy is the
least disruptive to the enacted statutory scheme. The problem to be remedied here is
that the seven-day period to complete the mail-in vote process has been rendered
unworkable by the current extraordinary circumstances. I have no doubt that the statute
was intended to accommodate the realities as they existed when Act 77 was enacted. It
is unconstitutional as applied to the November 2020 general election because of current
realities.
[J-96-2020] [MO: Baer, J.] - 11

A.86

For these reasons, in connection with the November 2020 general election only,
the deadline for requesting a ballot should be moved to Friday, October 23, 2020.4 The
legislative choice of Election Day at 8:00 p.m. should remain intact.
In summary, I agree with the Majority that the received-by date for ballot
applications in light of the deadline for submission of ballots to the county boards of
election is unworkable under current circumstances. I dissent from the invocation of
equitable powers to craft a remedy. In my view, this issue should have been decided on
the evidentiary record developed in Crossey based on the analytical framework for an asapplied challenge to the constitutionality of the statutory provisions as violative of Article
1, Section 5 of our Constitution, with the remedy crafted based upon the legislative intent
in enacting the circumstantially defective statutes.
Chief Justice Saylor and Justice Mundy join Part II of this concurring and dissenting
opinion.

To the extent that the non-severability clause in Section 11 of Act 77, 1 Pa.C.S. § 1925
is enforceable, I do not view the election specific remedies at issue here as-applied
constitutional violation as triggering the draconian consequence. In the context of the
COVID-19 pandemic, applying the non-severability provision to void Act 77 in its entirety
would itself be unconstitutional, as it would disenfranchise a massive number of
Pennsylvanians from the right to vote in the upcoming election.
4

More broadly, in Stilp v. Commonwealth, 905 A.2d 918, 978 (Pa. 2006), this Court
declined to apply an identically worded non-severability provision, id. at 973, refusing to
allow the General Assembly to “dictate the effect of a judicial finding that a provision in an
act is ‘invalid.’” Id. at 976. Here, as in Stilp, Act 77’s boilerplate non-severability provision
“sets forth no standard for measuring non-severability, but instead simply purports to
dictate to the courts how they must decide severability.” Id. at 973.
[J-96-2020] [MO: Baer, J.] - 12

A.87

APPENDIX D

[J-96-2020][M.O. - Baer, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
:
:
:
:
: SUBMITTED: September 8, 2020
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:

A.88

COLUMBIA COUNTY BOARD OF
ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD
OF ELECTIONS; PERRY COUNTY BOARD
OF ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020][M.O. - Baer, J.] - 2

A.89

OF ELECTIONS; SOMERSET COUNTY
BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS
PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

CONCURRING AND DISSENTING OPINION
CHIEF JUSTICE SAYLOR

DECIDED: September 17, 2020

I join Parts I, II, and III(C), (D) and (E) of the majority opinion, and I respectfully
dissent relative to Parts III(A) and (B), concerning the approval of unmanned drop boxes
and the extension of the deadline for receiving mail-in ballots.
With regard to drop boxes, I agree with Respondent and the Caucus that the
statutory option for a voter to deliver a mail-in ballot “in person to said county board of
election” contemplates in-person delivery to a manned, office location.

25 P.S.

§3150.16(a). Although another provision of the Election Code contemplates receipt of
“ballot boxes and returns . . . in such other place as has been designated by the board”
on Election Day, id. §3151, no analogous provision applies to the submission by voters
of individual ballots. Moreover, the legislative policy to restrain aggregated handling of

[J-96-2020][M.O. - Baer, J.] - 3

A.90

mail-in ballots by third parties is manifest, see, e.g., id. §3150.16(a) (requiring the elector
to mail or deliver a ballot), and the enforceability of this policy is weakened by the use of
non-statutory, unmanned drop boxes. This, to me, this suggests against a permissive
interpretation of the Election Code.
Relative to the deadline for receiving mail-in ballots, I join Part II of Justice
Donohue’s concurring and dissenting opinion, as this most closely hews to the express
legislative intent that the election be concluded by 8:00 p.m. on election night.
Finally, although the majority decision appears to be designed to accommodate
only ballots actually mailed on Election Day or before, the majority does not so much as
require a postmark. Particularly in combination with the allowance of drop boxes, this
substantially increases the likelihood of confusion, as well as the possibility that votes will
be cast after 8:00 p.m. on Election Day, thus greatly undermining a pervading objective
of the General Assembly.
Justice Mundy joins this concurring and dissenting opinion.

[J-96-2020][M.O. - Baer, J.] - 4

A.91

APPENDIX E

[J-96-2020]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
: Emergency Applications for Stay
:
:
:
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:
COLUMBIA COUNTY BOARD OF
:

A.92

ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD OF
ELECTIONS; PERRY COUNTY BOARD OF
ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD
OF ELECTIONS; SOMERSET COUNTY

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020] - 2

A.93

BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS
PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

ORDER
PER CURIAM
AND NOW, this 24th day of September, 2020, the Applications for Stay submitted
in the above captioned case are DENIED.
Justice Mundy files a dissenting statement.

A True Copy Elizabeth E. Zisk
As Of 09/24/2020

Attest: ___________________
Chief Clerk
Supreme Court of Pennsylvania

[J-96-2020] - 3

A.94

APPENDIX F

[J-96-2020]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
PENNSYLVANIA DEMOCRATIC PARTY,
NILOFER NINA AHMAD, DANILO
BURGOS, AUSTIN DAVIS, DWIGHT
EVANS, ISABELLA FITZGERALD,
EDWARD GAINEY, MANUEL M. GUZMAN,
JR., JORDAN A. HARRIS, ARTHUR
HAYWOOD, MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN KINSEY, PETER
SCHWEYER, SHARIF STREET, AND
ANTHONY H. WILLIAMS

: No. 133 MM 2020
:
: Emergency Applications to Stay
:
:
:
:
:
:
:
:
:
v.
:
:
:
KATHY BOOCKVAR, IN HER CAPACITY
:
AS SECRETARY OF THE
:
COMMONWEALTH OF PENNSYLVANIA;
:
ADAMS COUNTY BOARD OF ELECTIONS; :
ALLEGHENY COUNTY BOARD OF
:
ELECTIONS; ARMSTRONG COUNTY
:
BOARD OF ELECTIONS; BEAVER
:
COUNTY BOARD OF ELECTIONS;
:
BEDFORD COUNTY BOARD OF
:
ELECTIONS; BERKS COUNTY BOARD OF :
ELECTIONS; BLAIR COUNTY BOARD OF
:
ELECTIONS; BRADFORD COUNTY
:
BOARD OF ELECTIONS; BUCKS COUNTY :
BOARD OF ELECTIONS; BUTLER
:
COUNTY BOARD OF ELECTIONS;
:
CAMBRIA COUNTY BOARD OF
:
ELECTIONS; CAMERON COUNTY BOARD :
OF ELECTIONS; CARBON COUNTY
:
BOARD OF ELECTIONS; CENTRE
:
COUNTY BOARD OF ELECTIONS;
:
CHESTER COUNTY BOARD OF
:
ELECTIONS; CLARION COUNTY BOARD
:
OF ELECTIONS; CLEARFIELD COUNTY
:
BOARD OF ELECTIONS; CLINTON
:
COUNTY BOARD OF ELECTIONS;
:
COLUMBIA COUNTY BOARD OF
:

A.95

ELECTIONS; CRAWFORD COUNTY
BOARD OF ELECTIONS; CUMBERLAND
COUNTY BOARD OF ELECTIONS;
DAUPHIN COUNTY BOARD OF
ELECTIONS; DELAWARE COUNTY
BOARD OF ELECTIONS; ELK COUNTY
BOARD OF ELECTIONS; ERIE COUNTY
BOARD OF ELECTIONS; FAYETTE
COUNTY BOARD OF ELECTIONS;
FOREST COUNTY BOARD OF
ELECTIONS; FRANKLIN COUNTY BOARD
OF ELECTIONS; FULTON COUNTY
BOARD OF ELECTIONS; GREENE
COUNTY BOARD OF ELECTIONS;
HUNTINGDON COUNTY BOARD OF
ELECTIONS; INDIANA COUNTY BOARD
OF ELECTIONS; JEFFERSON COUNTY
BOARD OF ELECTIONS; JUNIATA
COUNTY BOARD OF ELECTIONS;
LACKAWANNA COUNTY BOARD OF
ELECTIONS; LANCASTER COUNTY
BOARD OF ELECTIONS; LAWRENCE
COUNTY BOARD OF ELECTIONS;
LEBANON COUNTY BOARD OF
ELECTIONS; LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE COUNTY
BOARD OF ELECTIONS; LYCOMING
COUNTY BOARD OF ELECTIONS;
MCKEAN COUNTY BOARD OF
ELECTIONS; MERCER COUNTY BOARD
OF ELECTIONS; MIFFLIN COUNTY
BOARD OF ELECTIONS; MONROE
COUNTY BOARD OF ELECTIONS;
MONTGOMERY COUNTY BOARD OF
ELECTIONS; MONTOUR COUNTY BOARD
OF ELECTIONS; NORTHAMPTON
COUNTY BOARD OF ELECTIONS;
NORTHUMBERLAND COUNTY BOARD OF
ELECTIONS; PERRY COUNTY BOARD OF
ELECTIONS; PHILADELPHIA COUNTY
BOARD OF ELECTIONS; PIKE COUNTY
BOARD OF ELECTIONS; POTTER
COUNTY BOARD OF ELECTIONS;
SCHUYLKILL COUNTY BOARD OF
ELECTIONS; SNYDER COUNTY BOARD
OF ELECTIONS; SOMERSET COUNTY

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

[J-96-2020, 133 MM 2020] - 2

A.96

BOARD OF ELECTIONS; SULLIVAN
COUNTY BOARD OF ELECTIONS;
SUSQUEHANNA COUNTY BOARD OF
ELECTIONS; TIOGA COUNTY BOARD OF
ELECTIONS; UNION COUNTY BOARD OF
ELECTIONS; VENANGO COUNTY BOARD
OF ELECTIONS; WARREN COUNTY
BOARD OF ELECTIONS; WASHINGTON
COUNTY BOARD OF ELECTIONS;
WAYNE COUNTY BOARD OF
ELECTIONS; WESTMORELAND COUNTY
BOARD OF ELECTIONS; WYOMING
COUNTY BOARD OF ELECTIONS; AND
YORK COUNTY BOARD OF ELECTIONS
PETITION OF: KATHY BOOCKVAR, IN
HER CAPACITY AS SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

DISSENTING STATEMENT
JUSTICE MUNDY

FILED: September 24, 2020

In my view, Intervenors1 make a substantial case on the merits that this Court
should stay the portion of our opinion extending the deadline for receipt of mail-in ballots
past 8:00 p.m. on November 3, 2020, Election Day.2 In Pennsylvania Democratic Party
v. Boockvar, ___ A.3d ___, 2020 WL 5554644 (Pa. 2020), a majority of this Court held
that all mail-in ballots postmarked by 8:00 on Election Day, and received by 5:00 p.m.
Intervenors refers to the Republican Party of Pennsylvania and Joseph B. Scarnati III,
President Pro Tempore, Jake Corman, Majority Leader of the Pennsylvania Senate,
Bryan Cutler, Speaker of the Pennsylvania House of Representatives, and Kerry
Benninghoff, Majority Leader of the Pennsylvania House of Representatives.
1

A stay may be granted where Petitioners, “make a substantial case on the merits and
show that without the stay, irreparable injury will be suffered. Additionally, before granting
a request for a stay, the court must be satisfied the issuance of the stay will not
substantially harm other interested parties in the proceedings and will not adversely affect
the public interest.” Maritrans G.P., Inc. v. Pepper, Hamilton & Scheetz, 573 A.2d 1001,
1003 (1990).
2

[J-96-2020, 133 MM 2020] - 3

A.97

November 6, 2020, even those lacking a postmark or bearing an illegible postmark, would
be counted. Id. at *37. Without further explanation, the majority qualified that such ballots
“will be presumed to have been mailed by Election Day unless a preponderance of the
evidence demonstrates that it was mailed after Election Day.” Id. The Republican Party
of Pennsylvania Intervenors argue that virtually no evidence exists to overcome such a
presumption, and “the Court’s presumption opens the door to illegally and untimely cast
or mailed ballots being counted in, and tainting the results of, the imminent general
election in which millions of Pennsylvanians will exercise their right to vote.” Republican
Party of Pennsylvania Application for Partial Stay at 4.
Intervenors assert that there is a substantial likelihood that they will be successful
on the merits of the stay application and writ of certiorari to be filed in the United States
Supreme Court. Citing to Republican Nat’l Comm. v. Democratic Nat’l Comm., 140 S. Ct.
1205 (2020), Intervenors note that the United States Supreme Court stayed a Wisconsin
Supreme Court judgment and held that “[e]xtending the date by which ballots may be cast
by voters after the scheduled election day fundamentally alters the nature of the election.”
Id. at 1207. It is reasonable that the United States Supreme Court may view this Court’s
presumption regarding ballots lacking a postmark or bearing an illegible postmark in the
same light. As a result, I would grant a stay to preserve the public confidence in the
integrity of the upcoming election.

[J-96-2020, 133 MM 2020] - 4

A.98

APPENDIX G

File Copy

Amy Dreibelbis, Esq.
Deputy Prothonotary
Elizabeth E. Zisk
Chief Clerk

RE:

Supreme Court of Pennsylvania
Middle District

October 26, 2020

601 Commonwealth Avenue, Suite 4500
P.O. Box 62575
Harrisburg, PA 17106
(717) 787-6181
www.pacourts.us

PA Dem Party. v. Boockvar, et al; Pet: Boockvar
No. 133 MM 2020
Lower Appellate Court Docket No:
Other Court Docket No: 407 MD 2020

Dear Attorney Gallagher
Mr. Giancola
The "Republican Party of Pennsylvania's Application for Partial Stay and Modification of
September 17, 2020 Judgment" submitted via PACFile on 10/23/20 has been rejected and not
accepted for filing, as it is not permitted.

Very truly yours,
Office of the Prothonotary
/ad

A.99

cc: Richard Louis Armezzani, Esq.
Mark Alan Aronchick, Esq.
William Gleason Barbin, Esq.
Regina Marie Blewitt, Esq.
Nicole Jeanne Boland, Esq.
Timothy Patrick Brennan, Esq.
Daniel Thomas Brier, Esq.
Thomas M. Caffrey, Esq.
Larry E. Coploff, Esq.
Susan M. Davies, Esq.
John Bartley Delone, Esq.
John B. Dempsey, Esq.
Jonathan Lee DeWald, Esq.
Daniel T. Donovan, Esq.
Elizabeth A. Dupuis, Esq.
Stephen Bradley Edwards, Esq.
Christopher P. Gabriel, Esq.
Timothy Eugene Gates, Esq.
Robert Lawrence Gawlas, Esq.
Gerard Joseph Geiger, Esq.
Mary Abbegael Giunta, Esq.
Michael A. Glick, Esq.
Kevin Michael Greenberg, Esq.
Robert Eugene Grimm, Esq.
Robert J. Grimm, Esq.
Terence Martin Grugan, Esq.
Michele D. Hangley, Esq.
Christina Lee Hausner, Esq.
John Brent Hill, Esq.
Howard Greeley Hopkirk, Esq.
George M. Janocsko, Esq.
Kenneth Lawson Joel, Esq.
Ryan Michael Joyce, Esq.
Nathan W. Karn, Esq.
Sean Robert Keegan, Esq.
Sean Andrew Kirkpatrick, Esq.
Kathleen Marie Kotula, Esq.
Alex Michael Lacey, Esq.
Frank J. Lavery Jr., Esq.
Clifford B. Levine, Esq.
Jonathan Lienhard, Esq.
Richard P. Limburg, Esq.
William J. Madden, Esq.
Stephen Moniak, Esq.
Lawrence John Moran Jr., Esq.
Sean Alexander Mott, Esq.
Molly Ruth Mudd, Esq.
Daniel Barrett Mullen, Esq.
Sarah Mae Murray, Esq.
Keli Marie Neary, Esq.
Andrew W. Norfleet, Esq.
Allan Joseph Opsitnick, Esq.
Allen P. Page IV, Esq.
Anthony Michael Pratt, Esq.
David Allen Regoli, Esq.
Edward David Rogers, Esq.

A.100

cc: Karen Mascio Romano, Esq.
Adam R. Roseman, Esq.
Richard Eugene Santee, Esq.
Robert D. Schaub, Esq.
Thomas R. Shaffer, Esq.
Shawn Sheehy, Esq.
Steven B. Silverman, Esq.
Stephen S. Snook, Esq.
Gregory Dale Sobol, Esq.
Krista Ann M. Staley, Esq.
Christine D. Steere, Esq.
Andrew Francis Szefi, Esq.
Thomas S. Talarico, Esq.
Brian J. Taylor, Esq.
Jason Torchinsky, Esq.
Thomas George Wagner, Esq.
Donna Ann Walsh, Esq.
H. William White III, Esq.
Elizabeth Victoria Wingfield, Esq.
Devin Arlie Winklosky, Esq.
Robert Andrew Wiygul, Esq.
Carl John Zwick, Esq.

A.101

File Copy

Docket No: 133 MM 2020

AOPC 1258
Rev. 10/26/2020
Instance: 2037320155

Service List
Addressed To:

Carbon Copied To:

Kathleen A. Gallagher, Esq.
Porter Wright Morris & Arthur LLP
6 Ppg Pl Third Fl
Pittsburgh, PA 15222

PACFile Notified

Russell David Giancola, Esq.
Porter Wright Morris & Arthur LLP
6 Ppg Pl
Third Floor
Pittsburgh, PA 15222

PACFile Notified

Richard Louis Armezzani, Esq.
Myers, Brier & Kelly, LLP
Myers Brier & Kelly Llp
425 Spruce St Ste 200
Scranton, PA 18503

PACFile Notified

Mark Alan Aronchick, Esq.
Hangley, Aronchick, Segal, Pudlin & Schiller
Hangley Aronchick Et Al
1 Logan Sq Fl 27
Philadelphia, PA 19103-6995

PACFile Notified

William Gleason Barbin, Esq.
Cambria County Commissioners
200 South Center
Ebensburg, PA 15931

PACFile Notified

Regina Marie Blewitt, Esq.
Joyce, Carmody & Moran, P.C.
9 N Main St Ste 4
Pittston, PA 18640

PACFile Notified

Nicole Jeanne Boland, Esq.
Pennsylvania Office of Attorney General
Pa Office Of Attorney General
15TH Fl Strawberry Sq
Harrisburg, PA 17120

PACFile Notified

Timothy Patrick Brennan, Esq.
Northampton County Solicitor's Office
669 Washington Street
Easton, PA 18042

PACFile Notified

A.102

File Copy

Docket No: 133 MM 2020

Service List
Carbon Copied To:

Daniel Thomas Brier, Esq.
Myers, Brier & Kelly, LLP
Myers Brier & Kelly
425 Spruce St Ste 200
Scranton, PA 18503

PACFile Notified

Thomas M. Caffrey, Esq.
Lehigh County Department of Law
Po Box A
Coplay, PA 18037-0200

PACFile Notified

Larry E. Coploff, Esq.
Coploff, Ryan, Welch & Houser
136 E Water St Frnt
Po Box 389
Lock Haven, PA 17745-0389

PACFile Notified

Susan M. Davies, Esq.
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, N.W.
Washington, DC 20004
John Bartley Delone, Esq.
Office of Attorney General
Appellate Litgation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
Fax No:

PACFile Notified

(717) 772-4526
John B. Dempsey, Esq.
Myers, Brier & Kelly, LLP
Myers Brier & Kelly Llp
425 Spruce St Ste 200
Scranton, PA 18503-1851

PACFile Notified

Jonathan Lee DeWald, Esq.
McNerney, Page, Vanderlin & Hall
McNerney Page Et Al
433 Market St
Williamsport, PA 17701

PACFile Notified

Daniel T. Donovan, Esq.
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, N.W.
Washington, DC 20004

A.103

File Copy

Docket No: 133 MM 2020

Service List
Carbon Copied To:

Elizabeth A. Dupuis, Esq.
Babst Calland Clements and Zomnir PC
Babst Calland Et Al
330 Innovation Blvd Ste 302
State College, PA 16803

PACFile Notified

Stephen Bradley Edwards, Esq.
Lavery Law PC
Lavery Law
225 Market St Ste 304
PO Box 1245
Harrisburg, PA 17108

PACFile Notified

Christopher P. Gabriel, Esq.
Cafardi Ferguson Wyrick Weis & Gabriel LLC
Cafardi Ferguson Wyrick
2605 Nicholson Rd Ste 2201
Sewickley, PA 15143

PACFile Notified

Timothy Eugene Gates, Esq.
Pa Dept Of State Occ
306 N Office Bldg
Harrisburg, PA 17120

PACFile Notified

Robert Lawrence Gawlas, Esq.
Rosenn, Jenkins & Greenwald, LLP
Rosenn Jenkins & Greenwald Llp
15 S Franklin St
Wilkes-Barre, PA 18711

Fax No:

Gerard Joseph Geiger, Esq.
Newman Williams, P.C.
712 Monroe St
P.o. Box 511
Stroudsburg, PA 18360

PACFile Notified

Mary Abbegael Giunta, Esq.
Pennsylvania Governor's Office
Pa Governor's Ofc Ogc
333 Market St Fl 17
Harrisburg, PA 17101

PACFile Notified

(717) 787-1788

A.104

File Copy

Docket No: 133 MM 2020

Service List
Carbon Copied To:

Michael A. Glick, Esq.
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, N.W.
Washington, DC 20004
Kevin Michael Greenberg, Esq.
Greenberg Traurig, LLP
1717 Arch Street, Suite 400
Philadelphia, PA 19103

PACFile Notified

Robert Eugene Grimm, Esq.
Law Office of Robert Eugene Grimm
Po Box 430
Smithfield, PA 15478-0430

PACFile Notified

Robert J. Grimm, Esq.
Swartz Campbell, LLC
Swartz Campbell LLC
436 7th St 7th 8th Fls
Pittsburgh, PA 15219-2710

PACFile Notified

Terence Martin Grugan, Esq.
Ballard Spahr LLP
1735 Market St Fl 51
Philadelphia, PA 19103-7599

PACFile Notified

Michele D. Hangley, Esq.
Hangley, Aronchick, Segal, Pudlin & Schiller
Hangley Aronchick Et Al
1 Logan Sq Fl 27
Philadelphia, PA 19103-6995

PACFile Notified

Christina Lee Hausner, Esq.
Lancaster County Solicitor's Office
County Of Lancaster
150 N Queen St SE 714
Lancaster, PA 17603

PACFile Notified

John Brent Hill, Esq.
Hangley Aronchick Segal Pudlin & Schiller
Hangley Aronchick Segal
1 Logan Sq Fl 27
Philadelphia, PA 19103

PACFile Notified

A.105

File Copy

Docket No: 133 MM 2020

Service List
Carbon Copied To:

Howard Greeley Hopkirk, Esq.
Pennsylvania Office of Attorney General
Appellate Litigation Sec
Strawberry Square 15th Fl
Harrisburg, PA 17120-0001

PACFile Notified

George M. Janocsko, Esq.
Allegheny County Law Department
300 Fort Pitt Cmns
445 Fort Pitt Blvd
Pittsburgh, PA 15219

PACFile Notified

Kenneth Lawson Joel, Esq.
Office of General Counsel
333 Market St
17th Floor
Harrisburg, PA 17101

PACFile Notified

Ryan Michael Joyce, Esq.
Swartz Campbell, LLC
Swartz Campbell LLC
436 7TH Ave Fls 7 8
Pittsburgh, PA 15219

PACFile Notified

Nathan W. Karn, Esq.
401 Allegheny St
Po Box 415
Hollidaysburg, PA 16648-2011

PACFile Notified

Sean Robert Keegan, Esq.
Babst Calland Clements and Zomnir PC
Babst Calland Et Al
603 Stanwix St Fl 6
Pittsburgh, PA 15222

PACFile Notified

Sean Andrew Kirkpatrick, Esq.
Pennsylvania Office of Attorney General
Pa Ofc Of Attorney General
Strawberry Sq 15th Fl
Harrisburg, PA 17120-0001

PACFile Notified

A.106

File Copy

Docket No: 133 MM 2020

Service List
Carbon Copied To:

Kathleen Marie Kotula, Esq.
Pennsylvania Department of State
Bureau of Commissions, Elections and Legislation
306 North Office Building
Harrisburg, PA 17120

Fax No:

(717) 214-9899

Fax No:

PACFile Notified

Alex Michael Lacey, Esq.
Dentons Cohen & Grigsby P.C.
625 Liberty Ave
Pittsburgh, PA 15222-3152

PACFile Notified

Frank J. Lavery Jr., Esq.
Lavery Law
225 Market Street, Suite 304
PO Box 1245
Harrisburg, PA 17108-1245

PACFile Notified

(717) 233-7003
Clifford B. Levine, Esq.
Dentons Cohen & Grigsby P.C.
625 Liberty Ave
Pittsburgh, PA 15222

PACFile Notified

Jonathan Lienhard, Esq.
Holtzman Vogel Josefiak and Torchinsky, LLP
15405 John Marshall Hwy
Haymarket, VA 20169
Richard P. Limburg, Esq.
Obermayer, Rebmann, Maxwell & Hippel, LLP
Obermayer Rebmann Et Al
1515 Market St Ste 3400 Ctr Sq W
Philadelphia, PA 19102

PACFile Notified

William J. Madden, Esq.
William J. Madden PC
165 Euclid Ave
Po Box 981
Sharon, PA 16146-3477

PACFile Notified

A.107

File Copy

Docket No: 133 MM 2020

Service List
Carbon Copied To:

Stephen Moniak, Esq.
Josh Shapiro, Attorney General of the Commonwealth
of Pennsylvania
Strawberry Square 15th Floor
Harrisburg, PA 17120

PACFile Notified

Lawrence John Moran Jr., Esq.
Joyce, Carmody & Moran, P.C.
9 N Main St Ste 4
Pittston, PA 18640

PACFile Notified

Sean Alexander Mott, Esq.
Adams County Solicitor's Office
117 Baltimore St
Gettysburg, PA 17325

PACFile Notified

Molly Ruth Mudd, Esq.
Adams County
Adams County Courthouse
117 Baltimore St 2nd Fl
Gettysburg, PA 17325-2367

PACFile Notified

Daniel Barrett Mullen, Esq.
Pennsylvania Office of Attorney General
1251 Waterfront Pl Mezzanine Level
Pittsburgh, PA 15222

PACFile Notified

Sarah Mae Murray, Esq.
County of Lehigh
Government Center Room 440
17 S 7TH St
Allentown, PA 18101

PACFile Notified

Keli Marie Neary, Esq.
Pennsylvania Office of Attorney General
Pa Attorney General Civil Law
Strawberry Sq 15th Fl
Harrisburg, PA 17120-0001

PACFile Notified

Andrew W. Norfleet, Esq.
Lavery Law
225 Market Street Suite 304 Po Box 1245
Harrisburg, PA 17108-1245

A.108

File Copy

Docket No: 133 MM 2020

Service List
Carbon Copied To:

Allan Joseph Opsitnick, Esq.
Allegheny County Law Department
564 Forbes Ave Ste 1301
Pittsburgh, PA 15219-2910

PACFile Notified

Allen P. Page IV, Esq.
McNerney, Page, Vanderlin & Hall
McNerney Page Vanderlin & Hall
433 Market St
Williamsport, PA 17701
Anthony Michael Pratt, Esq.
Greenberg Traurig, LLP
1717 Arch Street, Suite 400
Philadelphia, PA 19103

PACFile Notified

David Allen Regoli, Esq.
Westmoreland County Sheriff's Office
Court of Common Pleas
2 N Main St
Greensburg, PA 15601

PACFile Notified

Edward David Rogers, Esq.
Ballard Spahr LLP
1735 Market St Fl 51
Philadelphia, PA 19103-7599

PACFile Notified

Karen Mascio Romano, Esq.
Pennsylvania Office of Attorney General
Pa Ofc Of Attorney General
Strawberry Sq Fl 15
Harrisburg, PA 17120

PACFile Notified

Adam R. Roseman, Esq.
Greenberg Traurig, LLP
1717 Arch Street, Suite 400
Philadelphia, PA 19103

PACFile Notified

Richard Eugene Santee, Esq.
Northampton County Solicitor's Office
669 Washington Street
Easton, PA 18042

PACFile Notified

A.109

File Copy

Docket No: 133 MM 2020

Service List
Carbon Copied To:

Robert D. Schaub, Esq.
Rosenn, Jenkins & Greenwald, LLP
Rosenn Jenkins & Greenwald Llp
15 S Franklin St
Wilkes-Barre, PA 18711-0075

PACFile Notified

Thomas R. Shaffer, Esq.
Glassmire & Shaffer Law Offices, P.C.
410 Ross St
5 E Third St
Coudersport, PA 16915-1631

PACFile Notified

Shawn Sheehy, Esq.
Holtzman Vogel Josefiak and Torchinsky, LLP
15405 John Marshall Hwy
Haymarket, VA 20169

PACFile Notified

Steven B. Silverman, Esq.
Babst Calland Clements and Zomnir PC
Babst Calland Et Al
2 Gateway Ctr 6th Fl
Pittsburgh, PA 15222

PACFile Notified

Stephen S. Snook, Esq.
BMZ Law, PC
Bmz Law Pc
20 S Wayne St
Lewistown, PA 17044-2145
Gregory Dale Sobol, Esq.
Zwick & Zwick LLP
Zwick And Zwick Llp
275 Main St
Brookville, PA 15825

PACFile Notified

Krista Ann M. Staley, Esq.
Babst, Calland, Clements and Zomnir, P.C.
Babst, Calland, Clements and Zomnir, P.C.
2 Gateway Ctr
Pittsburgh, PA 15222

PACFile Notified

Christine D. Steere, Esq.
Deasey, Mahoney & Valentini, Ltd.
Deasey Mahoney & Valentini Ltd
103 Chesley Dr Ste 101
Media, PA 19063

PACFile Notified

A.110

File Copy

Docket No: 133 MM 2020

Service List
Carbon Copied To:

Fax No:

Andrew Francis Szefi, Esq.
Allegheny County Law Department
Allegheny County Law Dept
300 Fort Pitt Commons
445 Fort Pitt Blvd
Pittsburgh, PA 15219-1327

PACFile Notified

Thomas S. Talarico, Esq.
Talarico & Associates
230 W 6TH St Ste 202
Erie, PA 16507-1077

PACFile Notified

Brian J. Taylor, Esq.
Northampton County Solicitor's Office
669 Washington Street
Easton, PA 18042

PACFile Notified

Jason Torchinsky, Esq.
Holtzman Vogel Josefiak and Torchinsky, LLP
15405 John Marshall Hwy
Haymarket, VA 20169

PACFile Notified

Thomas George Wagner, Esq.
Meyer Wagner Brown & Kraus
115 Lafayette St
Saint Marys, PA 15857-1327

PACFile Notified

Donna Ann Walsh, Esq.
Myers, Brier & Kelly, LLP
425 Spruce St
Ste 200
Scranton, PA 18503

PACFile Notified

H. William White III, Esq.
Butler County Solicitor's Office
124 West Diamond Street
Po Box 1208
Butler, PA 16003-1208

PACFile Notified

(724) 284-5400
Elizabeth Victoria Wingfield, Esq.
Ballard Spahr LLP
1735 Market St
Ballard Spahr Llp
Philadelphia, PA 19103

A.111

PACFile Notified

File Copy

Docket No: 133 MM 2020

Service List
Carbon Copied To:

Devin Arlie Winklosky, Esq.
Porter Wright Morris & Arthur LLP
Porter Wright
6 Ppg Pl Third Fl
Pittsburgh, PA 15222

PACFile Notified

Robert Andrew Wiygul, Esq.
Hangley, Aronchick, Segal, Pudlin & Schiller
Hangley Aronchick Et Al
18TH Cherry Sts Fl 27
Philadelphia, PA 19103

PACFile Notified

Carl John Zwick, Esq.
Zwick & Zwick LLP
171 Beaver Dr
Po Box 1127
Dubois, PA 15801

PACFile Notified

A.112

APPENDIX H

TLP: WHITE

CANVASSING SEGREGATED MAIL-IN AND CIVILIAN
ABSENTEE BALLOTS RECEIVED BY MAIL AFTER 8:00 P.M. ON
TUESDAY, NOVEMBER 3, 2020 AND BEFORE 5:00 P.M. ON
FRIDAY, NOVEMBER 6, 2020

Date: November 1, 2020
Version: 1.0

A.113

On October 28, 2020, the Department of State issued guidance related to the segregation of mail-in and
civilian absentee ballots received by mail after 8:00 P.M. on Tuesday November 3, 2020 and before 5:00
P.M. on Friday, November 6, 2020. In doing so, the Department of State indicated it would update the
county boards of elections on how to canvass those segregated ballots. That guidance follows:
1. All directions in the guidance issued on October 28, 2020 concerning the segregation and
logging of ballots received during this defined post-election period continue to apply.
Specifically, mail-in and civilian absentee ballots received by mail after 8:00 P.M. on November 3
and before 5:00 P.M. on November 6 shall be identified and segregated from all other voted
ballots and shall be maintained, preserved and appropriately logged as directed in the October
28, 2020 guidance.
2. One authorized representative of each candidate in an election and one representative from
each political party shall be permitted to remain in the room in which the ballots are canvassed.
3. By statute, no challenges by authorized representatives or any third party are permitted during
canvass of the mail-in and absentee ballots.
4. To facilitate transparency and ensure that all validly cast ballots are counted, it is critically
important that county boards maintain accurate records of the disposition of ballots received
during this period as directed below.
Canvass Procedures
•

Guidance concerning mail-in and absentee ballots previously provided by the
Department, including the guidance issued on August 19, 2020, September 11, 2020,
and September 28, 2020, continues to apply unless otherwise specified herein.

•

The county board of elections shall canvass segregated absentee and mail-in ballots
received after 8:00 P.M. on Tuesday November 3, 2020, and before 5:00 P.M. on Friday,
November 6, 2020 as soon as possible upon receipt of the ballots and within the period
specified by law for the canvass. The canvass meeting shall continue until all segregated
absentee and mail-in ballots have been canvassed.

•

The county board of elections shall examine the voter declaration on each envelope to
ensure that it is executed and signed and verify that the voter’s name appears on the
approved list of mail-in and absentee voters.

•

The county board of elections should set aside and should not open or count any of the
following:
o

Ballots cast by any voter who died prior to the opening of the polls on
November 3, 2020.

o

Ballots containing a postmark that is after November 3, 2020.

o

Ballots with a missing or illegible postmark containing a voter declaration
that is dated after November 3, 2020.
2

A.114

o
•

•

•

Ballots (whenever postmarked) received by mail after 5:00 P.M. on Friday,
November 6, 2020.

Additionally, the county board of elections should not open or count any of the
following specific types of ballots pending further review as follows:
o

If proof of identification for an absentee or mail-in voter was not received or
could not be verified, the ballot should not be counted unless the elector
provides proof of identification that can be verified by the county board by
the sixth calendar day following the canvassing, or on or before Thursday,
November 12.

o

For ballots of voters whose applications were challenged prior to the
challenge deadline (5:00 P.M. on Friday, October 30, 2020), those ballots
should not be counted pending completion of the challenge procedure in
the Election Code. Ballot applications can only be challenged on the basis
that the applicant is not qualified to vote. Ballots associated with
applications timely challenged on this basis must be placed in a secure, safe,
and sealed container until the board of elections schedules a formal hearing
on the challenged ballots. The time set for the hearing shall be within three
(3) days after November 6. The hearing procedure shall comply with the
Election Code and shall be the same procedure for challenged ballots
received prior to 8:00 P.M. on Tuesday, November 3, 2020.

Other than ballots falling into one of the categories set forth above, mail-in and civilian
absentee ballots that comply with the Election Code and the Department’s prior
guidance shall be canvassed as follows:
o

Ballots with a postmark on or before November 3, 2020 are valid and must be
counted.

o

Ballots that lack a postmark or other proof of mailing, or for which the postmark
or other proof of mailing is illegible, are presumed to have been mailed by
Tuesday, November 3, 2020, and are valid and must be counted, unless a
preponderance of the evidence demonstrates that the ballot was mailed after
November 3, 2020.

o

County boards of elections are instructed to maintain separate counts for each
of the following categories of ballots: (i) ballots with a postmark on or before
November 3, 2020 which are counted; (ii) ballots without a postmark (or with an
illegible postmark) which are presumed to have been mailed prior to Election
Day and which are counted; and (iii) ballots without a postmark (or with an
illegible postmark) which are determined by a preponderance of the evidence to
have been mailed after Election Day and which are not counted.

Consistent with the Department’s prior guidance, county boards of elections are
instructed to set aside any ballots that lack the inner secrecy envelope and any ballots in
3

A.115

A.116

APPENDIX I

From:
Sent:
To:

Cc:
Subject:

Gore, John M.
Wednesday, October 28, 2020 4:20 PM
donald.verrilli@mto.com; Brier (External), Daniel; jdelone@attorneygeneral.gov;
jtorchinsky@hvjt.law; zwallen@cpblawgroup.com; kstaley@babstcalland.com;
flavery@laverylaw.com; jcosgrove@getyourselfagoodlawyer.com;
rgrimm@swartzcampbell.com; mhangley@hangley.com;
aopsitnick@opsitnickslaw.com; Taylor (External), Brian; cjz@zwick-law.com;
chausner@co.lancaster.pa.us; cgabriel@cfwws.com; regoli@regolilaw.com;
rogerse@ballardspahr.com; ggeiger@newmanwilliams.com; wwhite@co.butler.pa.us;
jdewald@mpvhlaw.com; lec@crwlaw.net; mmudd@adamscounty.us;
nkarn@eveyblack.com; rschaub@rjglaw.com; lawyergrimm@hotmail.com;
tcaffrey@rcn.com; twagner@mwbklaw.com; tomshaffer@verizon.net;
ttalarico@nwpalawyers.com; britanderson2002@yahoo.com; wjmpc@verizon.net;
csteere@dmvlawfirm.com; clifford.levine@dentons.com
Raimer, David T.; Potapov, Alex; Gallagher, Kathleen A.; Giancola, Russell D.
Republican Party of PA v. Boockvar - Ballot Segregation

Counsel:
By guidance issued today, Secretary of State Boockvar has advised each county board of elections to take three actions
to “securely segregate mail‐in and civilian absentee ballots received by the county board before 8:00 p.m. on November
3 from those received via USPS after 8:00 p.m. on November 3 and before 5:00 p.m. on Friday, November 6.” Guidance
at 2 (emphasis original), https://www.supremecourt.gov/DocketPDF/20/20‐
542/158993/20201028140128485_Attachment%20‐%20Segregation%20Guidance%2010‐28‐2020.pdf.
The Republican Party of Pennsylvania expects that each county board of elections will follow this guidance. However, in
order to preserve its rights, including its right to U.S. Supreme Court review, the Republican Party of Pennsylvania asks
each board of elections to confirm by response to this email whether it intends to follow this guidance.
Adherence to the guidance may obviate the need for the U.S. Supreme Court to issue an injunction requiring segregation
of ballots at this time. If, however, any county board does not respond to this email or indicates that it intends not to
follow this guidance, the Republican Party of Pennsylvania reserves its rights to seek appropriate relief.
Because time is of the essence, we request your response no later than 2 p.m. ET on Thursday, October 29.
Thanks.
John M. Gore
Partner
JONES DAY® - One Firm Worldwide®
51 Louisiana Avenue, N.W.
Washington, D.C. 20001
Office +1.202.879.3930

SERVICE LIST
Donald B. Verrilli, Jr.
MUNGER, TOLLES & OLSON LLP

Daniel T. Brier
MYERS, BRIER & KELLY, LLP
1

A.117

601 Massachusetts Avenue, NW
Suite 500E
Washington, DC 20001
(202) 220-1101
donald.verrilli@mto.com

425 Spruce Street, Suite 200
Scranton, PA 18503
(570) 342-6100
dbrier@mbklaw.com

Counsel for Respondent Pennsylvania
Democratic Party

Counsel for Respondent Secretary of
State Boockvar

J. Bart DeLone
PENNSYLVANIA OFFICE OF
ATTORNEY GENERAL
Strawberry Square
320 Market Street, 15th Floor
Harrisburg, PA 17120
(717) 783-3226
jdelone@attorneygeneral.gov

Jason Torchinsky
HOLTZMAN VOGEL JOSEFIAK
TORCHINSKY PLLC
15405 John Marshall Hwy
Haymarket, VA 20169
(540) 341-8808
jtorchinsky@hvjt.law

Counsel for Respondent Secretary of
State Boockvar

Counsel for Respondents Sen. Joseph
Scarnati and Sen. Jake Corman

Zachary M. Wallen
CHALMERS & ADAMS LLC
301 South Hills Village Drive
Suite LL200-420
Pittsburgh, PA 15102
(412) 200-0842
zwallen@cpblawgroup.com

Krista-Ann M. Staley
BABST CALLAND
Two Gateway Center
603 Stanwix Street, 6th Floor
Pittsburgh, PA 15222
(412) 394-5400
kstaley@babstcalland.com

Counsel for Respondents Speaker Bryan Counsel for Respondents Boards of
Cutler and Rep. Kerry Benninghoff
Elections of Armstrong, Bedford, Blair,
Centre, Columbia, Dauphin, Fayette,
Huntingdon, Indiana, Lackawanna,
Lawrence,
Lebanon,
Montour,
Northumberland, Venango, and York
Counties
Frank J. Lavery, Jr.
LAVERY LAW
225 Market Street, Suite 304
Harrisburg, PA 17108-1245
(717) 233-6633
flavery@laverylaw.com

Joseph M. Cosgrove
SELINGO GUAGLIARDO LLC
345 Market Street
Kingston, PA 18704
(570) 287-3400
jcosgrove@getyourselfagoodlawyer.com

Counsel for Respondents Boards of Counsel for Respondent Luzerne County
Elections of Franklin and Perry Counties Board of Elections

2

A.118

Robert Grimm
SWARTZ CAMPBELL
600 Grant Street, Suite 4750
Pittsburgh, PA 15219
(412) 232-9800
rgrimm@swartzcampbell.com

Michele D. Hangley
HANGLEY ARONCHICK SEGAL
PUDLIN & SCHILLER
One Logan Square, 27th Floor
Philadelphia, PA 19103
(215) 496-7061
mhangley@hangley.com

Counsel for Respondent Washington
County Board of Elections

Counsel for Respondent Boards of
Elections of Bucks, Chester,
Montgomery, and Philadelphia
Counties

Allan Joseph Opsitnick
OPSITNICK & ASSOCIATES
564 Forbes Avenue #1301
Pittsburgh, PA 15219
(412) 391-3299
aopsitnick@opsitnickslaw.com

Brian J. Taylor
KING, SPRY, HERMAN, FREUND &
FAUL
One West Broad St., Ste. 700
Bethlehem, PA 18018
(610) 332-0390
btaylor@kingspry.com

Counsel for Respondent Allegheny
County Board of Elections

Counsel for Respondent Northampton
County Board of Elections

Carl John Zwick
ZWICK LAW
171 Beaver Drive
PO Box 1127
Dubois, PA 15801
(814) 371-6400
cjz@zwick-law.com

Christina Lee Hausner
150 N. Queen Street, Suite 714
Lancaster, PA 17603
(717) 735-1584
chausner@co.lancaster.pa.us

Counsel for Respondent Jefferson
County Board of Elections

Counsel for Respondent Lancaster
County Board of Elections

Christopher P. Gabriel
535 Smithfield Street, Suite 700
Pittsburgh, PA 15222-2310
(412) 395-1275
cgabriel@cfwws.com

David Allen Regoli
333 Freeport Street. Suite 201
New Kensington, PA 15068
(724) 335-0500
regoli@regolilaw.com

Counsel for Respondents Boards of
Elections of Clarion and Tioga Counties

Counsel for Respondent Westmoreland
County Board of Elections

3

A.119

Edward David Rogers
BALLARD SPAHR LLP
1735 Market Street, 51st Floor
Philadelphia, PA 19103
(215) 864-8144
rogerse@ballardspahr.com

Gerard J. Geiger
NEWMAN WILLIAMS, P.C.
712 Monroe Street
Stroudsburg, PA 18360
(570) 421-9090
ggeiger@newmanwilliams.com

Counsel for Respondent Delaware
County Board of Elections

Counsel for Respondents Boards of
Elections of Carbon, Monroe, Pike,
Snyder, and Wayne Counties

H. William White III
124 West Diamond St
Butler, PA 16003
(724) 284-5100
wwhite@co.butler.pa.us

Jonathan Lee DeWald
433 Market Street
Williamsport, PA 17701
(570) 326-6555
jdewald@mpvhlaw.com

Counsel for Respondent Butler County
Board of Elections

Counsel for Respondent Union County
Board of Elections

Larry E. Coploff
PO Box 389
Lock Haven, PA 17745
(570) 748-7771
lec@crwlaw.net

Molly Ruth Mudd
111 Baltimore Street
Gettysburg, PA 17325
(717) 337-5911
mmudd@adamscounty.us

Counsel for Respondent Clinton County
Board of Elections

Counsel for Respondent Adams County
Board of Elections

Nathan W. Karn
401-03 Allegheny Street
PO Box 415
Hollidaysburg, PA 16648
(814) 695-7581
nkarn@eveyblack.com

Robert D. Schaub
ROSENN JENKINS & GREENWALD
LLP
15 South Franklin Street
Wilkes-Barre, PA 18612
(570) 826-5652
rschaub@rjglaw.com

Counsel for Respondent Blair County
Board of Elections

Counsel for Respondent Susquehanna
County Board of Elections

Robert Eugene Grimm
2698 Morgantown Road
Smithfield, PA 15478
(724) 569-2819
lawyergrimm@hotmail.com

Thomas M. Caffrey
P.O. Box A
Coplay, PA 18037-0200
(610) 434-4418
tcaffrey@rcn.com

4

A.120

Counsel for Respondent Greene County
Board of Elections

Counsel for Respondent Lehigh County
Board of Elections

Thomas George Wagner
MEYER WAGNER BRAUN & KRAUS
115 Lafayette Street
Saint Marys, PA 15857
(814) 781-3445
twagner@mwbklaw.com

Thomas R. Shaffer
GLASSMIRE & SHAFFER LAW
5 East Third Street
Coudersport, PA 16915
(814) 274-7292
tomshaffer@verizon.net

Counsel for Respondent Elk County
Board of Elections

Counsel for Respondent Potter County
Board of Elections

Thomas S. Talarico
TALARICO & ASSOCIATES
510 Cranberry Street, Suite 301
Erie, PA 16507
(814) 459-4472
ttalarico@nwpalawyers.com

William Gleason Barbin
206 Main Street
Johnstown, PA 15901
(814) 535-5561
britanderson2002@yahoo.com

Counsel for Respondent Erie County
Board of Elections

Counsel for Respondent Cambria
County Board of Elections

William J. Madden
165 Euclid Avenue
Sharon, PA 16146
(724) 342-1300
wjmpc@verizon.net

Christine D. Steere
DEASEY, MAHONEY & VALENTINI,
LTD.
103 Chesley Drive, Suite 101
Media, PA 19063
(610) 892-2732
csteere@dmvlawfirm.com

Counsel for Respondent Mercer County
Board of Elections

Counsel for Respondent Berks County
Board of Elections

Clifford B. Levine
DENTONS COHEN & GRIGSBY P.C.
625 Liberty Avenue
Pittsburgh, PA 15222-3152
(412) 297-4900
clifford.levine@dentons.com
Counsel for Respondent Pennsylvania
Democratic Party

5

A.121

From:
Sent:
To:
Subject:

DeLone, J. Bart. <jdelone@attorneygeneral.gov>
Friday, October 30, 2020 4:23 PM
Gore, John M.
RE: [ EXTERNAL ] RE: Pa. Republican Party v. Boockvar - Ballot Segregation

** External mail **
Dear Mr. Gore,
Thank you for your email. So far, the following county boards of elections have indicated that they will comply
with the Secretary's guidance on segregating ballots: Adams; Allegheny; Armstrong, Bedford; Berks; Blair;
Bucks; Centre; Chester; Clinton; Columbia; Dauphin; Delaware; Fayette; Franklin; Huntington; Indiana;
Jefferson; Lackawanna; Lancaster; Lawrence; Lebanon; Luzerne; Mercer; Montgomery; Montour;
Northampton; Northumberland; Perry; Philadelphia; Venango; Washington; and York. No counties have
indicated to us that they will not comply. As more information becomes available, we will reach out.
As I am sure you understand, the intricacies of administering the upcoming election do not allow for
artificial limitations on the minute-by-minute decision making that must be made. As these decisions are made
and can be made public, we will again share.
Sincerely,
J. Bart DeLone
Chief Deputy Attorney General
Appellate Litigation Section
Office of Attorney General
15th Floor, Strawberry Square
Harrisburg, PA 17120
jdelone@attorneygeneral.gov
From: Gore, John M. [jmgore@jonesday.com]
Sent: Friday, October 30, 2020 12:11 PM
To: DeLone, J. Bart.
Cc: Kirkpatrick, Sean A.; Gallagher, Kathleen A.
Subject: [ EXTERNAL ] RE: Pa. Republican Party v. Boockvar - Ballot Segregation

CAUTION: This email originated from outside the organization. Do not click links or open
attachments unless you recognize the sender and know the content is safe.
Pennsylvania Office of Attorney General
Mr. DeLone:
Thank you again for providing this information.
On behalf of the Republican Party of Pennsylvania, I write to make two requests of the Secretary.

1

A.122

1. Will the Secretary provide us, on a rolling basis, a list of the county boards of elections that have responded to Mr.
Marks’s email and each board’s position on whether it will comply with the Secretary’s guidance? We are willing to
reciprocate by providing the list of county boards that responded to my email requesting the same information earlier
this week.
2. Will the Secretary also agree to provide us 24 hours’ advance notice before she changes her guidance or issues new
guidance regarding ballots received after 8:00 p.m. on Tuesday, November 3 and before 5:00 p.m. on Friday, November
6?
We ask for a response to these requests by 5:00 p.m. today.
Sincerely,
John M. Gore
Partner
JONES DAY® - One Firm Worldwide®
51 Louisiana Avenue, N.W.
Washington, D.C. 20001
Office +1.202.879.3930

From: Gore, John M.
Sent: Thursday, October 29, 2020 6:05 PM
To: 'DeLone, J. Bart.' <jdelone@attorneygeneral.gov>
Cc: Kirkpatrick, Sean A. <skirkpatrick@attorneygeneral.gov>
Subject: RE: Pa. Republican Party v. Boockvar ‐ Ballot Segregation
Mr. DeLone:
Thank you for this information.
Sincerely,
John M. Gore
Partner
JONES DAY® - One Firm Worldwide®
51 Louisiana Avenue, N.W.
Washington, D.C. 20001
Office +1.202.879.3930

From: DeLone, J. Bart. <jdelone@attorneygeneral.gov>
Sent: Thursday, October 29, 2020 5:59 PM
To: Gore, John M. <jmgore@jonesday.com>
Cc: Kirkpatrick, Sean A. <skirkpatrick@attorneygeneral.gov>
Subject: Pa. Republican Party v. Boockvar ‐ Ballot Segregation

** External mail **

Dear Mr. Gore,
As a follow-up to your email yesterday to the counties, I wanted to advise on behalf of the Secretary that her
department issued the following email to the county boards of elections.
Sincerely,
2

A.123

J. Bart DeLone
Chief Deputy Attorney General
Appellate Litigation Section
Office of Attorney General
15th Floor, Strawberry Square
Harrisburg, PA 17120
Direct (717) 712-3818
jdelone@attorneygeneral.gov
From: Marks, Jonathan <jmarks@pa.gov>
Sent: Thursday, October 29, 2020 2:15 PM
To: Marks, Jonathan <jmarks@pa.gov>
Subject: URGENT ‐ Email from DOS re Process for Segregating Ballots Received by Mail After Election Day
Importance: High
Good afternoon everyone.
Yesterday the Secretary issued the attached guidance related to mail-in and absentee ballots received
from the United States Postal Service after 8:00 p.m. on Tuesday November 3, 2020. The guidance
referenced that a motion to expedite a petition for a writ of certiorari related to the three-day extension
was pending in the United States Supreme Court. After the Secretary issued the guidance yesterday, the
United States Supreme Court denied the pending motion to expedite consideration of the petition for a
writ of certiorari. In doing so, three Justices of the Supreme Court joined in a statement that referenced
the guidance that the Secretary issued yesterday directing county boards of elections to segregate ballots
received between 8:oo p.m. on November 3, 2020 and 5:00 p.m. on November 6, 2020. Though the
Secretary continues to strongly defend the 3 day extension to ensure that every timely and validly cast
mail-in and absentee ballot is counted, to ensure uniformity and to respect the United States Supreme
Court’s consideration of the issues still before it, the Secretary strongly encourages each county board of
elections to affirmatively confirm that it will comply with the attached guidance. Please confirm by
replying to this email as soon as possible.
Future guidance will address how to pre-canvass and canvass the segregated ballots.
Kind regards,
Jonathan M. Marks
Deputy Secretary for Elections & Commissions
Pennsylvania Department of State
302 North Office Building | Harrisburg, PA 17120
 717.783.2035  717.787.1734
 jmarks@pa.gov

3

A.124

The information transmitted is intended only for the person or entity to whom it is addressed and may contain
confidential and/or privileged material. Any use of this information other than by the intended recipient is
prohibited. If you receive this message in error, please send a reply e-mail to the sender and delete the material
from any and all computers. Unintended transmissions shall not constitute waiver of any applicable attorneyclient or any other applicable privilege. PA-OAG
This message has been scanned for malware by Websense. www.websense.com
***This e-mail (including any attachments) may contain information that is private, confidential, or protected
by attorney-client or other privilege. If you received this e-mail in error, please delete it from your system
without copying it and notify sender by reply e-mail, so that our records can be corrected.***
Click here to report this email as spam.

4

A.125

